APPENDIX

APPENDIX A:

Opinion, No. 19-2025, 1st Cir.,
Mar. 15, 2021 .................................... 1a

APPENDIX B:

Memorandum & Order, No. 0710197-WGY, D. Mass., Oct. 1,
2019 ................................................. 68a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
For the First Circuit
___________________
No. 19-2025
UNITED STATES OF AMERICA,
Appellee,
v.
CARLOS CONCEPCION,
a/k/a BIG PAPI, a/k/a PAPI,
Defendant, Appellant.
___________________
APPEAL FROM THE UNITED STATES DISTRICT
COURT
FOR THE DISTRICT OF MASSACHUSETTS
[Hon. William G. Young, U.S. District Judge]
___________________
Before
Howard, Chief Judge,
Selya and Barron, Circuit Judges.
___________________
J. Martin Richey, Assistant Federal Public Defender,
for appellant.

2a
Jennifer Hay Zacks, Assistant United States
Attorney, with whom Andrew E. Lelling, United States
Attorney, was on brief, for appellee.
___________________
March 15, 2021
___________________
SELYA, Circuit Judge. Defendant-appellant Carlos
Concepcion pleaded guilty to possession with intent to
distribute and distribution of cocaine base (crack cocaine)
in 2008. The following year, the district court sentenced
him to a 228-month term of immurement. While the
defendant was serving his sentence, Congress passed the
Fair Sentencing Act, Pub. L. No. 111-220, 124 Stat. 2372,
which reduced the statutory penalties for most federal
crimes involving crack cocaine in an effort to ameliorate
sentencing disparities between crack cocaine offenses and
powdered cocaine offenses.
In 2018, Congress made these changes retroactive
through the First Step Act, Pub. L. No. 115-391, 132 Stat.
5194, and the defendant moved for resentencing. The
district court denied his motion, United States v.
Concepcion, No. 07-10197, 2019 WL 4804780 (D. Mass.
Oct. 1, 2019), and this timely appeal followed.
The defendant contends that the district court was
obliged to, but did not, update and reevaluate the
constellation of sentencing factors adumbrated in 18
U.S.C. § 3553(a). Relatedly, he contends that, pursuant to
this obligation, the district court should have recalculated
his guideline sentencing range (GSR) anew under the
sentencing guidelines in effect at the time of

3a
resentencing.1 Even if a recalculation of his GSR was not
required, he submits, the district court should have given
effect to guideline changes occurring subsequent to the
imposition of his original sentence. Because we have not
yet spoken definitively to the scope of resentencing under
the First Step Act, this appeal presents issues of first
impression in this circuit. After careful consideration, we
reject the defendant’s asseverational array and affirm the
district court’s order denying resentencing.
I.

BACKGROUND

We start by rehearsing the relevant facts and the
travel of the case. In 2006, federal law enforcement
officers in New Bedford, Massachusetts, monitored two
drug transactions in which the defendant participated.
Those transactions, in the aggregate, involved the sale of
27.5 grams of crack cocaine. Warrant-backed searches of
the defendant’s home and car turned up an additional
186.34 grams of powdered cocaine, two loaded firearms,
and many rounds of ammunition.
In due course, a federal grand jury sitting in the
District of Massachusetts charged the defendant with
possessing with intent to distribute and distributing five
grams or more of crack cocaine. See 21 U.S.C. § 841(a)(1)
(2006). This charge carried a statutory minimum penalty
of five years’ imprisonment and a statutory maximum
penalty of forty years’ imprisonment.
See id.
It is not clear whether the defendant seeks to have his GSR
recalculated pursuant to the guidelines in effect at the time he filed
his motion for resentencing or, should his motion be granted, those in
effect at the time of resentencing. As a shorthand, we refer in this
opinion to the guidelines in effect at the time of resentencing. We
note, however, that this appeal does not require us to explore the
choice between these alternatives, and we leave the question open.

1

4a
§ 841(b)(1)(B)(iii). The government, acting pursuant to 21
U.S.C. § 851(a)(1), filed an information memorializing that
the defendant had a prior felony drug-offense conviction,
which doubled the mandatory minimum and boosted the
maximum available sentence to life imprisonment. See id.
Although initially maintaining his innocence, the
defendant eventually pleaded guilty to the single-count
indictment. The probation department proceeded to
prepare a presentence investigation report (PSI report).
After tentatively concluding that the defendant had a total
offense level of twenty-five and should be placed in
Criminal History Category (CHC) V, the PSI report
determined that the defendant qualified as a career
offender under USSG §4B1.1(a). This determination
rested, in part, on the fact that the defendant’s criminal
record included at least two prior felony convictions for
crimes of violence and/or controlled substance offenses.
Specifically, his criminal history revealed state convictions
for distribution of crack cocaine, possession with intent to
distribute powdered cocaine, armed carjacking, armed
robbery, and assault and battery with a dangerous
weapon. The career offender designation resulted in a
total offense level of thirty-four, a CHC of VI, and a GSR
of 262 to 327 months.
The district court convened the disposition hearing on
May 6, 2009. The court adopted the final guideline
calculations recommended in the PSI report (including
the career offender designation). The defendant argued
for a downwardly variant 120-month sentence (the
mandatory minimum), and the government argued for a
262-month sentence (the bottom of the GSR). The court
mulled the section 3553(a) factors and considered, among
other things, the defendant’s troubled youth and then-

5a
current guideline and policy developments. The court
found that a below-the-range sentence of 228 months was
“sufficient but not greater than . . . necessary,” and
therefore fair and just. Cf. Kimbrough v. United States,
552 U.S. 85, 111 (2007) (upholding downward variance
when sentencing court had appropriately considered
defendant’s GSR, defendant’s background, and
Sentencing Commission’s then-recent criticism of
disparate treatment of crack cocaine offenses). The
defendant appealed, and we summarily affirmed the
challenged sentence. See United States v. Concepcion,
No. 09-1691 (1st Cir. Dec. 30, 2009) (unpublished
judgment).
This was far from the end of the matter. The
defendant sought collateral review of his sentence through
a motion filed pursuant to 28 U.S.C. § 2255. The district
court denied the motion. Little daunted, the defendant —
on August 1, 2016 — again moved to vacate his sentence
under section 2255. The district court treated the motion
as an application for leave to file a second or successive
section 2255 motion and referred it to this court. See 28
U.S.C. § 2255(h) (explaining that a second or successive
motion under section 2255 “must be certified . . . by . . . the
appropriate court of appeals”). We denied the application.
See Concepcion v. United States, No. 16-2209 (1st Cir.
Apr. 27, 2017) (unpublished judgment). Mistakenly
believing that the third time was the charm, the defendant
filed yet another section 2255 motion. That motion met a
similar fate. See Concepcion v. United States, No. 17-1637
(1st Cir. July 31, 2017) (unpublished judgment).
Nearly two years later, the defendant moved pro se to
reduce his sentence pursuant to the First Step Act. See
Pub. L. No. 115-391, 132 Stat. 5194. He argued that the

6a
First Step Act, by retroactively raising the quantity of
crack cocaine required to trigger the statutory penalty
provision set forth in 21 U.S.C. § 841(b)(1)(B)(iii) (2018),
reduced his statutory maximum sentence to thirty years,
see 21 U.S.C. § 841(b)(1)(C), and shrank his GSR to 188 to
235 months. Once counsel was appointed, an additional
argument was advanced on the defendant’s behalf. This
argument posited that the defendant no longer qualified
as a career offender and, thus, should be regarded as
having a GSR of fifty-seven to seventy-one months. The
government opposed the motion: although it agreed that
the defendant was eligible for resentencing under the
First Step Act, it cited the leniency originally extended by
the district court and urged that a reduced sentence be
withheld as a matter of discretion.
The district court, in a thoughtful rescript, denied the
defendant's motion for resentencing. Concepcion, 2019
WL 4804780, at *2-6. This appeal ensued.
II.

ANALYSIS

The defendant assigns error to the district court’s
denial of his motion for resentencing. Specifically, he
contends that in deciding whether to reduce his sentence
pursuant to the First Step Act, the court was required to
evaluate the 18 U.S.C. § 3553(a) factors anew and that,
under sections 3553(a)(4) and (5), such a reevaluation
entailed the preparation of a new PSI report, calculating a
new GSR based on the guidelines in effect at the time of
resentencing. As a fallback, the defendant contends that
even if a new GSR calculation was not obligatory, the court
should have at least considered intervening guideline
developments as part of its calibration of the other section
3553(a) factors. Because the defendant’s contentions
hinge, in the first instance, on the nexus between the First

7a
Step Act and the Fair Sentencing Act, we turn directly to
this nexus.
In 2010, Congress enacted the Fair Sentencing Act to
ameliorate sentencing disparities between similarly
situated defendants convicted of drug-trafficking offenses
involving crack cocaine, on the one hand, and powdered
cocaine, on the other hand. See Dorsey v. United States,
567 U.S 260, 263-64 (2012).
As the district court
determined, this case fits comfortably within that
paradigm. See Concepcion, 2019 WL 4804780, at *1-2.
Prior to the passage of the Fair Sentencing Act, the
defendant’s conviction for an offense involving five or more
grams of crack cocaine exposed him to a statutory
sentencing range of five to forty years in prison. See 21
U.S.C. § 841(b)(1)(B)(iii) (2006). The Fair Sentencing Act
increased the amount of crack cocaine needed to trigger
this penalty range to twenty-eight grams. See Fair
Sentencing Act § 2(a)(2). This change, however, did not
apply retroactively. Consequently, it did not inure to the
benefit of offenders — like the defendant — who were
sentenced before August3, 2010. See Dorsey, 567 U.S. at
280-81. As a result, the Fair Sentencing Act left in place
disparate sentences for crack cocaine offenses meted out
before August 3, 2010.
Congress sought to remedy this perceived inequity by
enacting the First Step Act. Section 404 of the First Step
Act applies specified portions of the Fair Sentencing Act
retroactively to defendants whose sentences became final
before August 3, 2010. Specifically, it provides that “[a]
court that imposed a sentence for a covered offense may . . .
impose a reduced sentence as if sections 2 and 3 of the Fair
Sentencing Act . . . were in effect at the time the covered
offense was committed.” First Step Act § 404(b). To

8a
complete the picture, the First Step Act defines a “covered
offense” as “a violation of a Federal criminal statute, the
statutory penalties for which were modified by section 2 or
3 of the Fair Sentencing Act . . . that was committed before
August 3, 2010.” Id. § 404(a). Importantly, the First Step
Act makes pellucid that the decision to impose or withhold
a reduced sentence is a decision that rests within the sound
discretion of the district court. See id. § 404(c) (“Nothing
in this section shall be construed to require a court to
reduce any sentence pursuant to this section.”).
Seen in this light, the defendant’s offense is a covered
offense within the purview of the First Step Act. In 2008,
he pleaded guilty to a violation of 21 U.S.C. § 841(a). The
offense to which he pleaded, coupled with his prior felony
drug convictions, subjected him to a mandatory minimum
term of ten years’ imprisonment and exposed him to a
maximum sentence of up to life imprisonment. See 21
U.S.C. § 841(b)(1)(B)(iii) (2006). And this statutory
sentencing range was materially altered when the Fair
Sentencing Act increased the triggering amount for the
mandatory minimum penalty to twenty-eight grams.
Taken in the ensemble, these developments brought the
defendant’s case under the carapace of the First Step Act.
See United States v. Smith, 954 F.3d 446, 450 (1st Cir. 2020)
(concluding that violation of 21 U.S.C. § 841(a)(1) involving
crack cocaine is a covered offense under First Step Act).
The district court recognized that, because the offense
of conviction was a covered offense, the First Step Act
rendered the defendant eligible for a sentence reduction.
The defendant argues that the court should have gone
further: it should have reevaluated the section 3553(a)
factors as of the date of the motion and commissioned a new
PSI report — one reflecting that, under the current

9a
iteration of the sentencing guidelines, the defendant no
longer qualifies as a career offender. In support, the
defendant says that one of his prior drug convictions has
been vacated and that emerging case law precludes some
of his other predicate offenses from being classified as
crimes of violence. See, e.g., United States v. Kennedy, 881
F.3d 14, 24 (1st Cir. 2018) (holding that Massachusetts
conviction for assault and battery with dangerous weapon
did not qualify as crime of violence under Armed Career
Criminal Act); United States v. Starks, 861 F.3d 306, 319
(1st Cir. 2017) (same with respect to Massachusetts
robbery).2 We proceed to examine this argument.
The scope of resentencing under section 404 of the First
Step Act is a question of statutory interpretation and, thus,
engenders de novo review. See Smith, 954 F.3d at 448;
United States v. Gibbens, 25 F.3d 28, 32 (1st Cir. 1994).
Although we have not previously confronted this question,
we have envisioned “at least two possibilities.” Smith, 954
F.3d at 452. A defendant “might be eligible for plenary
resentencing, in which case his GSR would potentially be
recalculated under the current version of the Sentencing
Guidelines Manual . . . or he might be eligible for a
procedure . . . in which . . . his GSR would remain as it was
[when he was sentenced] but the district court might
These cases were decided in light of Johnson v. United States,
576 U.S. 591 (2015), which held “that imposing an increased sentence
under the residual clause of the Armed Career Criminal Act violates
the Constitution’s guarantee of due process.” Id. at 606. Although
the defendant was not sentenced as a career offender under the
Armed Career Criminal Act, the United States Sentencing
Commission amended the career offender guideline defining “crime
of violence” by striking that provision’s residual clause in response to
Johnson. See USSG App. C Supp., Amend. 798 (effective Nov. 1,
2016); see also USSG §4B1.2(a) (2018).
2

10a
nevertheless vary downwardly.” Id. By demanding “at
minimum a present day review of the section 3553(a)
factors” and “a proper calculation of the guidelines in effect
at the time of resentencing,” the defendant seeks what
amounts to a plenary review of his sentence. Thus, this
case brings front and center the question left open in Smith
and requires us to decide whether a defendant’s eligibility
for First Step Act resentencing entitles him to plenary
resentencing.
Although this is an issue of first impression in this
circuit, we do not write on a pristine page. At least five of
our sister circuits have held, albeit in various contexts, that
section 404 of the First Step Act does not entitle a
defendant to plenary resentencing. See United States v.
Moore, 975 F.3d 84, 90-92 (2d Cir. 2020); United States v.
Denson, 963 F.3d 1080, 1089 (11th Cir. 2020); United States
v. Kelley, 962 F.3d 470, 471 (9th Cir. 2020); United States
v. Alexander, 951 F.3d 706, 708 (6th Cir. 2019); United
States v. Hegwood, 934 F.3d 414, 415 (5th Cir.), cert.
denied, 140 S. Ct. 285 (2019); cf. United States v. Hamilton,
790 F. App’x 824, 826 (7th Cir. 2020) (concluding that
“district court did not plainly err by reducing [the
defendant’s] sentence without a plenary resentencing”).
Four of these courts have squarely addressed whether
First Step Act resentencing entitles a defendant to a
reevaluation of his career offender status under
subsequently amended but non-retroactive guidelines, and
all of them have held that it does not. See Moore, 975 F.3d
at 90-91; Kelley, 962 F.3d at 475-79; United States v.
Foreman, 958 F.3d 506, 509-12 (6th Cir. 2020); Hegwood,
934 F.3d at 417-19.
This line of authority, though, is not uniform: four
circuits have espoused a minority view. See United States

11a
v. White, 984 F.3d 76, 90 (D.C. Cir. 2020); United States v.
Easter, 975 F.3d 318, 327 (3d Cir. 2020); United States v.
Boulding, 960 F.3d 774, 784 (6th Cir. 2020); United States
v. Chambers, 956 F.3d 667, 668 (4th Cir. 2020). For
example, the Sixth Circuit has held that a First Step Act
resentencing must “includ[e] an accurate calculation of the
amended guidelines range at the time of resentencing.”
Boulding, 960 F.3d at 784. So, too, the Fourth Circuit,
concluding (in a two-to-one opinion) that the First Step Act
requires a present-day recalculation of a defendant’s GSR,
has held that “any Guidelines error deemed retroactive . . .
must be corrected in a First Step Act resentencing.”
Chambers, 956 F.3d at 668.
Mindful of this divided authority, we begin — as every
exercise in statutory analysis should begin — with the text
of the controlling statute (here, the First Step Act). The
statute explicitly authorizes a “court that imposed a
sentence for a covered offense” to “impose a reduced
sentence as if sections 2 and 3 of the Fair Sentencing Act
of 2010 were in effect at the time the covered offense was
committed.” First Step Act § 404(b) (emphasis supplied).
That the First Step Act takes only sections 2 and 3 of the
Fair Sentencing Act back in time, stipulating that a new
sentence shall be meted out “as if” those sections (and only
those sections) were in effect when the defendant
committed the covered offense, is a compelling indication
that Congress did not intend that other sections of the Fair
Sentencing Act are to apply retroactively. See Kelley, 962
F.3d at 475; Hegwood, 934 F.3d at 418.
We add, moreover, that section 404(b) conspicuously
constrains a sentencing court’s list of newly applicable laws
at a resentencing hearing to only the Fair Sentencing Act.
Nothing in the First Step Act invites the district court to

12a
apply changes in the law external to the Fair Sentencing
Act. See United States v. Smith, 958 F.3d 494, 498 (6th Cir.
2020) (observing that First Step Act only provides “limited,
discretionary authorization to impose a reduced sentence”
which is “inconsistent with a plenary resentencing”
(quoting Hegwood, 934 F.3d at 418)); Alexander, 951 F.3d
at 708 (similar). As the Kelley court explained, the First
Step Act “authorizes the district court to consider the state
of the law at the time the defendant committed the offense,
and change only one variable: the addition of sections 2 and
3 of the Fair Sentencing Act as part of the legal landscape.”
962 F.3d at 475. The consideration of Amendment 798 and
current sentencing guidelines, as the defendant envisions,
goes beyond the limits of this authorization.
The fact that the First Step Act vests a district court
with wide discretion about whether to reduce a defendant’s
sentence for a covered offense, see First Step Act § 404(b);
id. § 404(c), cuts in the same direction. That Congress saw
fit to afford district courts such wide discretion is in tension
with the defendant’s argument that the court was obliged
to follow a specific procedure — a full reevaluation of the
section 3553(a) factors and a mandatory recalculation of the
defendant’s GSR under current guidelines.
Along the same line, it is clear to us — and our
dissenting brother agrees — that a First Step Act
resentencing constitutes only a modification of an imposed
term of imprisonment.
Further Congressional
circumscriptions on resentencing apply in such cases, and
those circumscriptions underscore the limited and
discretionary nature of the authorization afforded to
sentencing courts under the First Step Act. See Smith, 958
F.3d at 498. As a general matter, a final judgment in a
criminal case may not be revisited by the sentencing court.

13a
See 18 U.S.C. § 3582(b)-(c); see also Dillon v. United States,
560 U.S. 817, 824 (2010). Of course, this rule — like many
general rules — admits of certain exceptions. But in the
absence of an applicable exception, “[a] court may not
modify a term of imprisonment.” 18 U.S.C. § 3582(c).
Two such exceptions are relevant here. Under the
first, “the court may modify an imposed term of
imprisonment to the extent . . . expressly permitted by
statute.” Id. § 3582(c)(1)(B). Under the second,
“in the case of a defendant who has been
sentenced to a term of imprisonment based on a
sentencing range that has subsequently been
lowered by the Sentencing Commission pursuant
to 28 U.S.C. [§] 994(o), . . . the court may reduce
the term of imprisonment, after considering the
factors set forth in section 3553(a) to the extent
that they are applicable, if such a reduction is
consistent with applicable policy statements
issued by the Sentencing Commission.”
Id. § 3582(c)(2).
Because section 2 of the Fair Sentencing Act only
reduced the statutory penalties applicable to defendants
convicted of crack cocaine offenses, and did not address
sentences already imposed, retroactive modification of
sentences under the Fair Sentencing Act prior to the First
Step Act could be sought only “by reference to reductions
in the sentencing range.” United States v. Wirsing, 943
F.3d 175, 184 (4th Cir. 2019). And because those
reductions were made “by the Sentencing Commission,”
section 3582(c)(2) constituted the appropriate exception to
the finality of a sentence for those retroactive modification
requests. Id. at 184-85.

14a
A First Step Act motion, by contrast, is grounded in
the Act’s explicit authorization for a sentencing court to
reduce a sentence, rather than on actions of the
Sentencing Commission. For this reason, the appropriate
framework for the evaluation of a § 404(b) motion is found
in § 3582(c)(1)(B). See id.; United States v. Holloway, 956
F.3d 660, 665-66 (2d Cir. 2020) (“A First Step Act
motion . . . is not properly evaluated under 18 U.S.C.
§ 3582(c)(2). . . . [S]uch a motion falls within the scope of
§ 3582(c)(1)(B).”).
Accordingly, a sentencing court
evaluating a section 404(b) motion may modify a sentence
only to the extent “expressly permitted” by the First Step
Act. See § 3582(c)(1)(B).
This exception is narrow: by its terms, the First Step
Act allows only “a specific type of sentence reduction.”
See Kelley, 962 F.3d at 477. The permission granted in
section 404(b) is only permission to “impose a reduced
sentence as if sections 2 and 3 of the Fair Sentencing Act
. . . were in effect.” And this type of sentence reduction is
wholly discretionary. See First Step Act § 404(b)-(c). It
follows, we think, that mandatory enforcement of
intervening changes in the law, not encompassed by
sections 2 and 3 of the Fair Sentencing Act — in this
instance, Amendment 798 and any newly updated
guidelines — would fall outside the compass of the leave
Congress granted under the First Step Act. Simply put,
a First Step Act resentencing is not the correct vehicle
through which a defendant may demand the benefits of
emerging legal developments unrelated to sections 2 and
3 of the Fair Sentencing Act — and Congress has
prohibited the courts from holding otherwise. See 18
U.S.C. § 3582(c).
In addition to these statutory limitations on a

15a
sentencing court’s authority, we find persuasive the
government’s suggestion that a mechanical application of
intervening changes in the law would lead to anomalous
results. Congress enacted the Fair Sentencing Act to
correct the unequal treatment of crack cocaine offenses as
compared to powdered cocaine offenses. To interpret
section 404(b) to allow certain crack cocaine offenders to
avail themselves of case law unrelated to crack cocaine
sentencing disparities would not create a level playing
field but, rather, would put defendants convicted of crack
cocaine offenses in a more advantageous position than
defendants convicted of powdered cocaine offenses.
Indeed, such an interpretation would put crack cocaine
defendants who had committed covered offenses in a more
advantageous position than other criminal defendants
generally. See Kelley, 962 F.3d at 478.
We discern nothing in the text of either the Fair
Sentencing Act or the First Step Act that warrants a
conclusion that Congress intended to replace one set of
sentencing disparities with another. It would, therefore,
be an exercise in judicial hubris to transmogrify a motion
for resentencing under the First Step Act into an exclusive
backstreet permitting the free-wheeling correction of
putative errors in a defendant’s GSR anytime that the
guidelines change. See Chambers, 956 F.3d at 676
(Rushing, J., dissenting) (“Congress’s concern in Section
404 was to extend the cocaine sentencing provisions of the
Fair Sentencing Act retroactively, not to provide a general
opportunity to collaterally attack a final sentence.”).
In a further effort to broaden the scope of First Step
Act resentencing, the defendant invokes section 404(b)’s
statement that a court may “impose a reduced sentence as
if sections 2 and 3 . . . were in effect at the time the covered

16a
offense was committed.” First Step Act § 404(b).
Focusing with laser-like intensity on the word “impose,”
the defendant insists that this word choice evinces
congressional intent that First Step Act defendants be
resentenced under “the familiar . . . framework” of 18
U.S.C. § 3553(a). This word choice is critically important,
the defendant says, because the power to “impose” a
sentence is more expansive than the power either to
“modify” a sentence or to “reduce” a sentence. Similarly,
he gives weight to the fact that the participle of “impose”
is used in section 3553(a)’s enumeration of “factors to be
considered in imposing a sentence.” We find this
argument unconvincing.
At the outset, we note that the defendant’s tunnelvision reading of the word “impose” overlooks the express
limiting language of the First Step Act: the “as if” clause.
That clause permits a sentencing court to apply only
sections 2 and 3 of the Fair Sentencing Act — and no more.
See Moore, 975 F.3d at 91 (explaining that “the First Step
Act does not simply authorize a district court to ‘impose a
sentence’ [but] authorizes the court to do so subject to the
‘as if’ clause”). The defendant’s selective rendition of the
First Step Act sidesteps this plain statutory language.
What is more, reading the word “impose” in isolation
ignores the fact that the Act permits only a sentence
reduction. First Step Act § 404(b)-(c). Language has its
limits and, situating the word “impose” in context, we are
skeptical that a meaningful difference exists between
“imposing” a reduced sentence and “reducing” a sentence.
In all events, no such difference has been articulated here.
Viewed objectively, the fact that the First Step Act allows
only a sentence reduction strongly suggests that the act
does not authorize what would effectively be plenary

17a
resentencing. See Alexander, 951 F.3d at 708 (noting that
“authorization to impose a reduced sentence is
inconsistent with a plenary resentencing”); cf. Dillon, 560
U.S. at 831 (concluding that 18 U.S.C. § 3582(c)(2) “does
not authorize a resentencing” but “[i]nstead . . . permits a
sentence reduction”).
We add a coda. The defendant’s entreaty that we
mandate a fresh evaluation of the section 3553(a) factors
would, if honored, impermissibly cabin the discretion that
the First Step Act vests in the district court. It is to that,
at an original sentencing, the district court, “in
determining whether to impose a term of imprisonment
shall consider the factors set forth in section 3553(a).” 18
U.S.C. § 3582(a). By contrast, though, a sentence
reduction under the First Step Act is wholly discretionary.
See First Step Act § 404(b)-(c). In our view, the wide
discretion inherent in First Step Act resentencing
undercuts the defendant’s textual argument. See United
States v. Moore, 963 F.3d 725, 727-28 (8th Cir. 2020)
(rejecting argument that statutory use of “impose”
requires consideration of section 3553(a) factors); Kelley,
962 F.3d at 477-78 (same); Foreman, 958 F.3d at 510-12
(same).
Nor need we linger long over the defendant’s
contention that our construction of the First Step Act is at
odds with 18 U.S.C. § 3553(a). At the time of resentencing,
a district court must place itself back at the date of the
offense, altering the legal landscape only by resort to
sections 2 and 3 of the Fair Sentencing Act. See Hegwood,
934 F.3d at 418. This counterfactual exercise does not
undo the sentencing court’s original calibration of the
section 3553(a) factors. See id. at 418-19 (explaining that
resentencing under the First Step Act “is being conducted

18a
as if all the conditions for the original sentencing were
again in place with the one exception”). Because the text
and structure of the First Step Act do not support plenary
resentencing, there is no principled way that we can find
reassessment of the section 3553(a) factors mandatory.
The short of it is that the scope of a First Step Act
resentencing is more circumscribed than the defendant
envisions. Application of the First Step Act, which vests
great discretion in the district court, raises two questions:
the binary question of whether a defendant should be
resentenced and the conditional question of what that new
sentence should be. See Denson, 963 F.3d at 1087 (“The
First Step Act leaves the choice of whether to resentence
and to what extent to the district court’s sound
discretion.”). Fairly viewed, such a proceeding entails a
two-step inquiry by the district court. At the first step,
the district court should determine whether resentencing
of an eligible defendant is appropriate under the
circumstances of the particular case. At this step, though,
the district court’s discretion is cabined by the limited
permission that Congress saw fit to grant under section
404(b). Consequently, the district court must place itself
at the time of the original sentencing and keep the thenapplicable legal landscape intact, save only for the changes
specifically authorized by sections 2 and 3 of the Fair
Sentencing Act. Cf. Kelley, 962 F.3d at 475 (adopting a
two-step inquiry under which a district court should first
“place itself in the counterfactual situation where all the
applicable laws that existed at the time the covered
offense was committed are in place, making only the
changes required by sections 2 and 3 of the Fair
Sentencing Act”). The court must then determine
whether the defendant should be resentenced. Because

19a
section 3582(c)(1)(B) restricts a sentencing court’s
“permi[ssion]” to modify a sentence, a district court’s
decision to permit a modification must be based solely on
the changes that sections 2 and 3 of the Fair Sentencing
Act require to be made with respect to the defendant's
original GSR. See Hegwood, 934 F.3d at 418 (holding that
adjustment of defendant’s GSR “‘as if’ the lower drug
offense sentences were in effect at the time of the
commission of the offense . . . is the only explicit basis . . .
for a change in the sentencing”). If that determination is
in the negative, the inquiry ends and any sentence
reduction must be denied.
If, however, the district court’s determination is in the
affirmative, it may impose a reduced sentence under step
two of the inquiry. It is at this step that a district court
may, in its discretion, consider other factors relevant to
fashioning a new sentence. See Foreman, 958 F.3d at 513
(explaining that “First Step Act imposes no additional
constraints on a district court’s discretion once it
determines the statutory and Guidelines ranges ‘as if’ the
Fair Sentencing Act has been in effect before 2010”).
Specifically, the discretion that the First Step Act vests in
the district court leads to the logical conclusion — which
we endorse — that “a district court may, but need not,
consider section 3553 factors” in a reduction in sentence.
Moore, 963 F.3d at 727. When mulling these factors, the
court may choose to consider conduct that occurred
between the date of the original sentencing and the date
of resentencing. See United States v. Hudson, 967 F.3d
605, 612; Chambers, 956 F.3d at 674; United States v.
Jackson, 945 F.3d 315, 322 n.7 (5th Cir. 2019).
So, too, the district court may consider guideline
changes, whether or not made retroactive by the

20a
Sentencing Commission, once it reaches the second step
of the resentencing pavane. After all, a district court may
take into consideration any relevant factors (other than
those specifically proscribed), including current
guidelines, when deciding to what extent a defendant
should be granted relief under the First Step Act.3 See
Foreman, 958 F.3d at 513; see also United States v.
Harris, 960 F.3d 1103, 1106 (8th Cir. 2020); Smith, 954
F.3d at 452 n.8. It follows, we think, that a district court,
upon electing to fashion a reduced sentence pursuant to
the First Step Act, may in its discretion order the
preparation of a new PSI report. Such an updated PSI
report may contain a revised GSR, based in part upon
subsequent, non-retroactive guideline amendments. We
emphasize, though, that this discretion is a two-sided coin,
and the district court may choose to forgo a new PSI
report entirely.
Our dissenting brother disagrees in part: he diverges
from our view in his interpretation of the scope of the
discretion that a resentencing court possesses when
deciding whether to resentence a defendant under step
one. In his view, the discretion that our opinion affords a
district court under step two should extend to step one
such that, in deciding whether resentencing is
appropriate, the district court should be able to consider
post-sentencing information. The main support for the
dissent’s proposition is that section 3582(c)(2), the vehicle
The scope of this discretion is consistent with our case law
allowing sentencing courts to consider intervening guideline
amendments in other contexts. See, e.g., United States v. Ahrendt,
560 F.3d 69, 78-80 (1st Cir. 2009) (remanding for discretionary
resentencing based on non-retroactive guideline amendment); United
States v. Godin, 522 F.3d 133, 136 (1st Cir. 2008) (per curiam)
(similar).
3

21a
through which defendants requested a retroactive
application of the Fair Sentencing Act prior to the First
Step Act, expressly allows a court to consider such
information in its determination of “whether” to sentence
a defendant. See 19 USSG §1B1.10 cmt. n.1(B)(iii) (“The
court may consider post-sentencing conduct of the
defendant that occurred after imposition of the term of
imprisonment in determining: (I) whether a reduction in
the defendant’s term of imprisonment is warranted; and
(II) the extent of such reduction . . . .”). Nevertheless, our
dissenting brother argues that, in order to grant postFirst-Step-Act defendants an opportunity for relief
“roughly equivalent” to that afforded to previous
defendants, the discretion to consider such information
should apply in section 404(b) proceedings. Post at 60.
But we have determined — and our dissenting brother
does not dispute — that section 3582(c)(1)(B), not section
3582(c)(2), governs section 404(b) proceedings. See supra
at 16. Thus, “there is no reason to suppose that motions
brought pursuant to 3582(c)(1)(B) are subject to the
restrictions particular to § 3582(c)(2), which are grounded
in the text of the latter statute.” Wirsing, 943 F.3d at 185.
Although the application of section 3582(c)(2) is expressly
required to comport with section 1B1.10, neither section
3582(c)(1)(B) nor section 1B1.10 requires a sentence
modification under section 3582(c)(1)(B) “to comport with
U.S.S.G. § 1B1.10 or any other policy statement.”
Holloway, 956 F.3d 666. It follows that “the defendant’s
eligibility turns only on the statutory criteria” in section
3582(c)(1)(B) and the First Step Act. Id.
In fact, the deficiencies in pre-First-Step-Act
resentencing that our dissenting brother identifies were
wholly ameliorated by the removal of the restrictions that

22a
section 1B1.10 imposed on section 3582(c)(2) proceedings.
Prior to the First Step Act, a defendant was not eligible
for a sentence reduction if the sentencing amendments
introduced by the Fair Sentencing Act did not have the
effect of lowering the defendant’s GSR or if the defendant
had been originally sentenced as a career offender.
United States v. Stewart, 964 F.3d 433, 436 (5th Cir. 2020).
Both of these categories of sentence-reduction denials
emerged a result of section 1B1.10 restrictions on section
3582(c)(2) proceedings. See id. In explicitly authorizing
sentence modifications in the First Step Act, Congress
purposefully excised reductions related to the Fair
Sentencing Act from the realm of section 3582(c)(2),
thereby relieving section 404(b) proceedings from section
1B1.10 restrictions. See Holloway, 956 F.3d at 667 (“A
defendant’s eligibility for a reduced term of imprisonment
under Section 404 of the First Step Act is not governed by
18 U.S.C. § 3582(c)(2), and thus a district court
considering such a motion is not constrained by U.S.S.G.
§ 1B1.10[].”); 18 U.S.C. § 3582(c)(1)(B). The inference that
certain portions of section 3582(c)(2) should animate
section 404(b) proceedings that take place under a
different statutory provision simply does not follow.
It is also not clear why only certain portions (as
opposed to all) of the limitations applicable to section
3582(c)(2) should pertain to First Step Act resentencings.
As our dissenting brother points out, in a court’s
determination of whether a defendant should be
resentenced under section 3582(c)(2), the consideration of
post-sentencing information is permissive. See Post at 60;
see also 19 USSG §1B1.10 cmt. n.1(B)(iii). In that same
determination, though, the consideration of section
3553(a) factors is obligatory. See 19 USSG §1B1.10 cmt.

23a
n.1(B)(i). But the dissent does not argue that such an
obligation applies to section 404(b) proceedings. The same
is true, for example, of the section 1B1.10 prohibition on
sentence reductions in which an amendment does not
lower a defendant’s GSR. Even though nothing in the
First Step Act disavows this limitation, our dissenting
brother infers that this specific provision does not apply to
section 404(b) proceedings. Absent a Congressional
directive to apply limitations on relief expressly applicable
to one statutory provision to another statutory provision,
we see no justification for picking and choosing from the
section 1B1.10 list of limitations.
We make one final observation: there is not much
daylight between the position that we take and the
position taken by our dissenting brother. Indeed, the only
defendants who would be denied a sentence reduction
under our framework but who would be successful under
our dissenting brother’s vision are those defendants for
whom the Fair Sentencing Act was alone insufficient to
justify a reduction. This result not only comports with, but
also is mandated by, the applicable statutory restrictions.
The sole remaining issue is whether the district court
abused its discretion by denying the defendant’s motion
for resentencing. “An abuse of discretion ‘occurs when a
material factor deserving significant weight is ignored,
when an improper factor is relied upon, or when all proper
and no improper factors are assessed, but the court makes
a serious mistake in weighing them.’” United States v.
Soto-Beníquez, 356 F.3d 1, 30 (1st Cir. 2003) (quoting
Indep. Oil & Chem. Workers, Inc. v. Procter & Gamble
Mfg. Co., 864 F.2d 927, 929 (1st Cir. 1988)).
In this instance, the district court carefully analyzed
the First Step Act and its application to the defendant’s

24a
situation. It concluded that the defendant was eligible for
resentencing and focused on whether resentencing would
be appropriate as a matter of discretion. Deciding that
resentencing was not warranted, the court stressed its
initial leniency.
It made particular note that the
downwardly variant sentence it had imposed in 2009 was
within the new GSR dictated by the provisions of the Fair
Sentencing Act. The court proceeded to consider the
amended career offender guideline, noted that the
Sentencing Commission had declined to make it
retroactive, and decided not to pantomime it as a matter
of discretion. Summing up, the court observed that if the
defendant “came before the Court today and the Court
considered only the changes in law that the Fair
Sentencing Act enacted, his sentence would be the same.”
Consistent with this observation, the court concluded that
the original 228-month sentence was “fair and just” in
2009 and “remains so today.”
We discern nothing resembling a misuse of the
sentencing court’s discretion. The court weighed the
proper mix of factors, considered everything of
consequence, and made a judgment that was both
reasoned and reasonable. That judgment was well within
the encincture of the court’s discretion. No more was
exigible.
III.

CONCLUSION

We need go no further. For the reasons elucidated
above, the judgment of the district court is
Affirmed.
–Dissenting Opinion Follows–

25a
BARRON, Circuit Judge, dissenting. The majority
finds no abuse of discretion in this case. But it is a classic
abuse of discretion for a district court to decline to
exercise the discretion that it legally possesses because it
mistakenly believes that it lacks that discretion as a
matter of law. In my view, that is exactly what happened
here when, upon Carlos Concepcion’s request for a
sentence reduction pursuant to § 404(b) of the First Step
Act, the District Court declined to give any consideration
to the favorable intervening change to the career offender
Guideline that the United States Sentencing Commission
had made since that Guideline had been applied at his
original sentencing proceeding. See U.S.S.G. app. C
supp., amend. 798 (eliminating the residual clause from
the “crime of violence” definition at U.S.S.G. § 4B1.2(a)).
I thus am convinced that we must vacate and remand the
District Court’s ruling denying Concepcion the relief that
he seeks pursuant to § 404(b).
To explain my reasoning, it is necessary to pan out
from Concepcion’s particular case.
This broader
perspective reveals not merely the problem with the
District Court’s ruling on this record but also where, in my
view, the majority has erred more generally in construing
§ 404(b), which states: “A court that imposed a sentence
for a covered offense may . . . impose a reduced sentence
as if sections 2 and 3 of the Fair Sentencing Act of 2010
(Public Law 111-220; 124 Stat. 2372) were in effect at the
time the covered offense was committed.” First Step Act
of 2018, Pub. L. No. 115-391, § 404(b), 132 Stat. 5194, 5222.4
Section 404(a) of the First Step Act provides the class of
offenses – “covered offenses” -- for which the relief provided for in

4

26a
Through this provision of the First Step Act, Congress
addressed what had been one of the most glaring
inequities in our highly punitive federal sentencing
framework -- the substantially disparate treatment, under
both statutory law and the United States Sentencing
Commission’s Guidelines, accorded offenses involving
crack cocaine relative to those involving powder cocaine.
Section 404(b) mitigates that inequity by making
retroactive the otherwise prospective-only Fair
Sentencing Act, which Congress enacted to lessen that
disparate treatment.
Given the remedial nature of this legislative effort, it is
a mistake in my view to attribute to Congress an intention
to constrain district courts from exercising the kind of
discretion under this provision that they typically may
exercise when they have been authorized to rectify
sentences that time has shown to have been unduly harsh.
Cf. 18 U.S.C. § 3582(c)(2) (permitting sentence reductions
for defendants whose sentences were “based on a
sentencing range that has subsequently been lowered by
the Sentencing Commission”). Yet, as I will explain, the
majority’s construction of § 404(b), by limiting district
courts’ ability to take account of intervening developments
(beyond the retroactive application of the Fair Sentencing
Act that § 404(b) itself brings about), will have that precise
consequence in certain important respects.
I begin by describing in greater detail the particular
questions about the meaning of § 404(b) that this appeal
requires us to resolve. I then describe how the majority
§ 404(b) may be sought. Section 404(c) places limitations, not relevant
here, on circumstances in which relief may be sought and also makes
clear that a district court is not required to reduce any sentence under
§ 404(b).

27a
answers them and why I conclude that certain of those
answers are mistaken. Finally, I explain why in my view
the District Court’s ruling here cannot be sustained.
I.
District courts enjoy substantial discretion in selecting
a defendant’s sentence. True, they must set it within the
prescribed statutory maximum and minimum sentence (if
applicable), and they must do so after properly calculating
the range for the sentence that the United States
Sentencing Commission recommends through the
Guidelines that it promulgates. But, at least in the original
sentencing proceeding, a district court need not set the
sentence at any particular point within either range -- or,
it bears mention, within the range at all in the case of the
Guidelines Sentencing Range (“GSR”).
Questions do necessarily arise, though, as to the
considerations that may inform both the district court’s
determination of the sentence once the applicable
sentencing range has been identified and the calculation
of the range itself. And these questions arise as much in a
proceeding to revisit a sentence already imposed (such as
on remand from a direct appeal or in a proceeding to
modify under 18 U.S.C. § 3582(c)(2)) as they do in a
proceeding to impose a sentence for the first time.
One factor that bears on these considerations is the
focus of our concern in Concepcion’s case and that factor
is temporal in nature. It concerns the point in time after
the underlying offense has been committed at which the
clock stops, such that the district court is then barred from
giving weight in the defendant’s sentencing proceeding to
any subsequent developments (whether factual, such as
post-offense conduct by the defendant, or legal, such as

28a
amendments to the Guidelines that the Commission may
have made).
The resolution of this temporal choice may matter
greatly to the outcome of the sentencing proceeding. It
will affect not only the ingredients that the district court
may rely on in calculating the GSR that it will use in that
proceeding but also the ingredients that it then may rely
on in deciding, based off of that GSR, the sentence itself.
In the context of the original sentencing proceeding, it
is relatively clear that the clock stops in most respects only
when the sentencing proceeding itself begins. Thus,
barring any ex post facto concerns, the district court must
use the Guidelines in effect at the time of that sentencing
proceeding -- rather than, say, those in effect at the time
the defendant committed the offense -- to calculate the
GSR that will serve as the benchmark for the sentence to
be imposed at that proceeding. See David v. United
States, 134 F.3d 470, 475 (1st Cir. 1998); see also Gall v.
United States, 552 U.S. 38, 50 (2007). Similarly, when
setting both the GSR and the actual length of the sentence
in relation to that range in such an original sentencing
proceeding, the sentencing judge may consider any other
pertinent developments (including factual ones) that have
occurred up to the moment of the sentencing. See 18
U.S.C. § 3553(a); see also, e.g., United States v. Jordan,
549 F.3d 57, 61 (1st Cir. 2008).
In the context of revisiting proceedings, it also is clear
that the clock does not stop at the time the defendant
committed the underlying offense. But, there necessarily
arises in that context this new temporal choice: Is the
sentencing proceeding that stops that clock the one that
was held to impose the original sentence or the one that is
being held thereafter to revisit it?

29a
Concepcion’s appeal requires that we answer that
specific question of timing and that we do so in the
particular context of proceedings that are held pursuant
to § 404(b). Concepcion contends that the District Court
abused its discretion in his case under § 404(b) precisely
because it stopped the clock at the time of his original
sentencing proceeding and thus refused to consider at his
§ 404(b) proceeding subsequent developments (both legal,
like the amendment to the career offender Guideline
mentioned above, but also factual) that he contends
pointed in favor of reducing his sentence. He further
contends that the District Court’s refusal to consider
those intervening developments prejudiced his ability to
receive the sentence reduction that he contends that he
was due under that provision, such that the ruling denying
him relief under § 404(b) must be vacated and remanded.
II.
Having isolated the precise issue before us -- and the
temporal nature of it -- how should we go about resolving
it? As I will explain, the answer does not exactly leap off
the pages of the statute book.
Section 404(b), by its plain terms, does make clear -through its use of the word “reduced” -- that it is
authorizing a district court to adjust a sentence that has
already been imposed rather than to impose one anew.
And, in that respect, the provision is best read to be
authorizing a revisiting proceeding, notwithstanding the
text’s use of the word “impose.”
In addition, § 404(b) makes clear that the district court
must revisit the original sentence in a counterfactual
manner. As the text states, in deciding to “impose a
reduced sentence,” the district court must proceed “as if”

30a
the Fair Sentencing Act had been in effect when the
underlying offense was committed.
And, the text of § 404(b) also makes perfectly clear still
one more thing that is relevant to our inquiry. It
establishes that the district court will be making the
reduction decision in the here and now and thus,
necessarily, at a time when it is at least possible for it to
know of post-sentencing developments beyond the one
singled out in the “as if” clause. After all, at that earlier
time, those developments -- like the mandate to
retroactively apply the Fair Sentencing Act itself -- had
not yet occurred.
But, § 404(b) is more cryptic than clear when it comes
to the following additional question of timing that it
necessarily also prompts: Is the district court in making
the reduction decision in the here and now supposed to
blind itself to the present state of the world beyond the
fact of the existence of that new mandate imposed by the
“as if” clause? And, the text is similarly hard to decipher
when it comes to related questions that necessarily arise
insofar as the district court may take that broader peek at
the present in making such a reduction determination,
such as: What is the extent of the present-day knowledge
that it may draw upon and for what purposes may it do so?
Is the text saying to the district court that it must go
back in time to the moment of the original sentencing
proceeding, make the one alteration to that prior state of
the world that the “as if” clause compels, and then make
the reduction decision without accounting for what is now
also known? Is it saying instead that the district court
should simply be exercising the same type of discretion to
reduce the sentence at hand that it ordinarily has in
revisiting a sentence already imposed based on some

31a
change in the law, such as in a run-of-the-mill modification
proceeding or on a remand from a direct appeal? Or, is
§ 404(b) saying instead something distinct from either of
those two positions and, if so, what?
In my view, one could stare at the text of § 404(b) all
day long looking for answers to those questions and not
find them. It is only by placing that text in the context of
the overall federal sentencing framework in which it is
embedded that it is possible to discern answers to them.
In what follows, then, I explain what supplies that context
for me and what answers emerge from it. But, it helps
first to set forth more fully how the majority reads § 404(b)
to answer those same questions, as doing so will make it
clearer both why and how I diverge from its approach.
A.
The majority reads § 404(b) to require the district
court to engage in a two-step inquiry once it determines
that the defendant was originally sentenced for an offense
that is covered by that provision. Those two steps are to
be carried out -- temporally speaking -- as follows.
The first step of this inquiry, according to the majority,
requires the district court to make a gating judgment in
which it must ask: Is any reduction in the original
sentence appropriate at all? And, according to the
majority, the district court in answering that question
must set aside a presentist mindset and transport itself
back in time to the moment of the original sentencing
proceeding.
Then, having engaged in that time travel, under the
majority’s approach to this first step of the inquiry, the
district court, in keeping with § 404(b)’s “as if” clause,
must make just one adjustment to the state of the world

32a
as it then existed. It must proceed at the § 404(b)
proceeding “as if” the Fair Sentencing Act had been in
effect at the time the defendant committed the underlying
offense.
As a result, under the majority’s approach, the district
court at this first step of the inquiry must alter the GSR
that applied at the defendant’s original sentencing
proceeding – based as it necessarily was on the Guidelines
that were in effect at that earlier time. Or, at least, it must
do so in accord with any alteration in the then-applicable
statutory sentencing range that would be required by the
retroactive application of the relevant provisions of the
Fair Sentencing Act that § 404(b) itself brings about.
Finally, after having made that one adjustment to the
world as it was back then, the district court on the
majority’s view must go on at this first step of the § 404(b)
inquiry to make the critical gating determination. In other
words, to complete the first step, the district court must
decide, based on only the inputs thus far described,
whether to reduce the defendant’s original sentence given
that newly adjusted range.
The majority does conclude that a district court
conducting a § 404(b) proceeding is not so temporally
constrained once it arrives at the second step of the twostep inquiry. At that second step, according to the
majority, the district court may take account of what it
could not at step one – intervening factual developments,
such as post-sentencing conduct by the defendant, and
intervening legal developments, such as amendments to
the Guidelines that are favorable to the defendant’s cause,
whether or not they are themselves retroactive.
The district court’s sole temporal constraint at this

33a
second step, then, is relatively minimal. It is implicit in
the majority’s approach that, in considering those
intervening developments -- whether factual or legal -- the
district court at this second step must use the GSR that
has been calculated based on the Guidelines from the
original sentencing proceeding rather the ones in effect at
the time of the § 404(b) proceeding itself. But, once it is so
rooted in that way, it is free to account for all that it now
knows.
Yet, as much as the majority is willing to permit the
district court to adopt a more presentist mindset in this
important respect at step two of the inquiry, it is crucial to
keep in mind how temporally constrained the majority’s
approach remains overall. After all, it is critical to the
majority’s construction of § 404(b) that the second step of
this two-step inquiry does not itself concern the threshold
question -- posed only at the first step -- of whether the
defendant’s sentence should be reduced. It instead
concerns only the ancillary and follow-on question of how
much the sentence should be reduced, which is a question
that arises on the majority’s account if and only if the
decision at the first step to reduce the sentence at all has
already been made to the defendant’s benefit.
Thus, the upshot of the majority’s approach, taken as
a whole, is this: no post-sentencing developments other
than the First Step Act’s own mandate to give retroactive
effect to the Fair Sentencing Act may inform the district
court’s decision as to whether to reduce the defendant’s
sentence. Accordingly, under the majority’s approach, no
weight may be given at all in making that critical threshold
judgment to (1) post-sentencing statutory or Guidelines
changes unrelated to the crack-powder disparity, (2) the
overturning of the defendant’s prior convictions that had

34a
been relied on to determine his criminal history category,
or even (3) the defendant’s admirable post-sentencing
conduct. And that is so not only when it comes to deciding
what considerations may inform the setting of the GSR to
be used at the § 404(b) proceeding but also when it comes
to deciding whether any reduction at all is warranted in
the defendant’s original sentence given the GSR that
applies at that proceeding to revisit that sentence.
B.
For the reasons that I will next explain, I do not share
the majority’s bifurcated understanding of how a district
court may proceed -- temporally speaking -- under
§ 404(b). No other circuit distinguishes between the
“whether to reduce” and “how much to reduce”
determinations with regard to the consideration that a
district court may give under that provision of the First
Step Act to developments that post-date the original
sentencing proceeding (beyond, of course, the
development expressly brought about by the First Step
Act’s requirement to apply the Fair Sentencing Act
retroactively).5 And, even assuming that the reduction
Other circuits have, however, adopted the slightly different
two-step approach that I advance, in which the GSR calculation is
constrained but both discretionary questions -- whether and how
much to reduce the sentence -- can be informed by at least some
intervening developments. See, e.g., United States v. Foreman, 958
F.3d 506, 513 (6th Cir. 2020) (“[A] district court is authorized to do two
things with respect to a defendant’s covered offense: (1) determine
the statutory and Guidelines ranges ‘as if sections 2 and 3 of the Fair
Sentencing Act were in effect at the time the covered offense was
committed,’ and (2) exercise its discretion to impose a new sentence
somewhere between the revised statutory minimum and the existing
sentence. . . . [T]he First Step Act imposes no additional constraints
on a district court’s discretion once it determines the statutory and
Guidelines ranges ‘as if’ the Fair Sentencing Act had been in effect
5

35a
decision is not better conceived to be a more holistic
endeavor than the majority makes it out to be, I see no
reason that we should become the first circuit to do so.
I note that § 404(b) supplies no textual support that I
can see for distinguishing between these two types of
discretionary determinations in the manner that the
majority does. That provision appears merely to make a
unitary discretionary grant of authority to “impose a
reduced sentence” without purporting to carve it up into
discrete judgments subject to distinct temporal
constraints.6
Moreover, the background against which § 404(b) was
enacted and the purposes that underlie that provision
combine in my view to demonstrate the problems with the
way the majority resolves the ambiguities in § 404(b)’s
text as to at least certain of the temporal questions
presented here. For, as I will explain, that background
and those purposes indicate to me that this text should be
before 2010.”); see also United States v. Moore, 975 F.3d 84, 89 (2d
Cir. 2020) (“First, the court must determine whether the defendant is
eligible for a reduction. Second, if the defendant is eligible, the court
must determine whether, and to what extent, to exercise its discretion
to reduce the sentence.”); United States v. McDonald, 944 F.3d 769,
771 (8th Cir. 2019) (similar).
6
Concededly, that grant of authority in § 404(b) is conditional,
but the chief condition -- set forth in the “as if” clause -- does not by
terms purport to speak to whether the clock stops at the original
sentencing proceeding or the § 404(b) proceeding as to either the
question of whether to reduce the original sentence or the question of
by how much to reduce it if a reduction of any sort is in order. Thus,
that conditioning “as if” clause draws no distinction between the
“whether” and the “by how much” determinations. The clause on its
face speaks instead only to the sentencing range that must be applied
in the § 404(b) proceeding that must serve as the anchor for both of
those determinations.

36a
construed to give the district court not only the discretion
that the majority would afford it to account for intervening
developments in deciding how much to reduce a sentence
but also that same amount of discretion to account for
those same intervening developments in making the
threshold determination about whether to reduce the
sentence at all. Or, at least, the background and purposes
suggest to me that the district court has such discretion
once it has calculated the GSR based on the Guidelines
that were in effect at the time of the original sentencing
proceeding while duly accounting for the application of the
Fair Sentencing Act mandated by § 404(b)’s “as if” clause.
1.
The majority implicitly accepts that the first temporal
question that arises under § 404(b) is not the “whether to
reduce” one that is its focus at the first step of its
approach. Rather, the first temporal question is the
logically prior one concerning how the district court must
calculate the GSR to be used in the § 404(b) proceeding.
Indeed, under the majority’s approach, the Fair
Sentencing Act-adjusted GSR supplies the “initial
benchmark” for the determinations that must be made
under § 404(b) at each of the two steps it identifies. See
Gall, 552 U.S. at 49.7
Section 404(b) of the First Step Act does not by its terms
require the district court to determine the newly applicable GSR
before deciding whether to reduce the defendant's original sentence.
That provision incorporates provisions of the Fair Sentencing Act that
change the statutory penalties setting the mandatory maximum and
minimum sentence for certain crimes involving cocaine base. See Fair
Sentencing Act of 2010, Pub. L. No. 111-220, 124 Stat. 2372. For
defendants sentenced as career offenders, as Concepcion was, these
statutory penalty changes affect the applicable GSR, too, because the
7

37a
Thus, although the majority’s two-step approach
appears to me to collapse the temporal question of
whether the old or the new Guidelines must be used to
calculate that GSR into the necessarily follow-on temporal
question of which considerations (old or new) may inform
the “whether to reduce” determination, I think it is
important separately to analyze that antecedent question
first. For, while I agree with the majority that the
calculation of the GSR to be used at the § 404(b)
proceeding must be based -- in the main -- on the old
Guidelines, the reasons that lead me to that conclusion do
not in my view support the majority’s resolution of the
follow-on temporal question regarding the “whether to
reduce” determination.
a.
Notably, the text of § 404(b) does not itself have much
to say about which version of the Guidelines -- old or new
-- is to be used to calculate the GSR that will control at a
§ 404(b) proceeding. There is no express reference in this
provision to the GSR that applies, let alone to how the
GSR that is to be used at such a proceeding is to be
calculated.
The provision’s “as if” clause does -- at least impliedly
-- make clear that the GSR that applies in a § 404(b)
offense level under the career offender Guideline is keyed to the
statutory maximum for the offense of conviction. See U.S.S.G.
§ 4B1.1(b). The parties do not dispute that the district court must
adjust the GSR at least to account for these changes. And, doing so
as the initial step in a sentencing proceeding is the standard practice
across sentencing contexts, including in those modification
proceedings permitting a district court to revisit a sentence in light of
certain subsequent legal developments. See Gall, 552 U.S. at 49;
Dillon v. United States, 560 U.S. 817, 827 (2010).

38a
proceeding cannot be the same one that was used in the
original sentencing proceeding, at least insofar as the one
that was used at that earlier time had been keyed to a
statutory maximum that would not apply if the relevant
Fair Sentencing Act provisions then had been in effect.
Otherwise, the taint of the disparate treatment of crackcocaine offenses that the First Step Act aims to address
would carry through to the § 404(b) proceeding itself.
But, the “as if” clause does not make similarly clear
whether, in calculating the GSR to be used at a proceeding
under that provision, the district court must use the
Guidelines that were in effect at the time of the original
sentencing proceeding or those Guidelines that are in
effect at the time of that revisiting proceeding. It simply
does not address that question.
That is not to say that the “as if” clause makes no
temporal reference. It plainly does. But, it does so only
by referring back to the time of the commission of the
offense. And, while that time frame is one that makes
sense for purposes of determining the statutory penalties,
see Dorsey v. United States, 567 U.S. 260, 272-73 (2012),
it is not one that speaks to the version of the Guidelines
that Congress intended for the district court to use in
calculating the GSR in § 404(b) proceedings. At the time
of the offense’s commission, after all, there had been no
sentencing proceeding -- original or otherwise.
Nor can the “as if” clause be thought to offer an
implicit resolution of the temporal question concerning
which version of the Guidelines to use in calculating the
GSR for the § 404(b) proceeding itself. That clause would
not be rendered wholly superfluous, for example, if
§ 404(b) were construed to require that the Guidelines
used to calculate the GSR for such a proceeding were the

39a
ones that are in effect at the time of that proceeding (save
for any ex post facto concerns), rather than the ones that
were in effect at the time of the original sentencing
proceeding. Indeed, in that event, the “as if” clause still
would usefully perform a clarifying role, by making plain
how far back in time the Fair Sentencing Act would apply
retroactively.
All that said, the text of § 404(b) is not a complete
cipher with respect to the temporal question at hand. The
reference to a “reduced” sentence in § 404(b) does provide
a possible clue as to what Congress intended on that score,
as it necessarily takes the district court back to the earlier
sentence that the defendant originally received and
thereby accords with the notion that the district court in a
§ 404(b) proceeding should understand itself to be
adjusting -- or determining whether to adjust -- a sentence
that has already been imposed rather than to be imposing
an entirely new one afresh.
Accordingly, the provision’s text does in this respect
provide a hook for concluding that Congress intended the
district court to use the version of the Guidelines to
calculate the GSR to use at the § 404(b) proceeding that it
uses in other contexts in which it has been charged with
revisiting a previously imposed sentence for a possible
reduction. Nor do I think we strain the word “reduced”
too much by reading it to provide this hook.
It is a familiar interpretive precept that, in resolving a
statutory ambiguity, we may look to the pre-existing
legislative foundation on which a new measure builds for
insight into what Congress meant by the words it enacted.
It thus makes sense to me to look to what came before
§ 404(b) in analogous contexts to resolve the ambiguity
that is at issue here, which concerns the version of the

40a
Guidelines to use at the § 404(b) proceeding. See United
States v. Martin, 974 F.3d 124, 139 (2d Cir. 2020) (noting
that “[t]o the extent the First Step Act is silent,” it “makes
sense to look to . . . analogous resentencing proceeding[s]”
given that “it is more likely that Congress was adopting,
rather than departing from, established assumptions
about how our legal or administrative system works”
(quoting Nat. Res. Def. Council, Inc. v. U.S. Food & Drug
Admin., 760 F.3d 151, 166 (2d Cir. 2016))).
b.
Such a review turns out to be most instructive. It
reveals that, unlike in original sentencing proceedings,
district courts in revisiting proceedings do not generally
use the Guidelines that are in effect at the time of those
proceedings.
To the contrary, it has been clear since at least the 2003
enactment of 18 U.S.C. § 3742(g)(1) that on remand a
district court is to apply the Guidelines that were in effect
at the time of a defendant’s original sentencing to calculate
the GSR that will be used in determining the punishment
in the resentencing. See PROTECT Act, Pub. L. No. 10821, 117 Stat. 650 (2003) (codified at 18 U.S.C. § 3742(g))
(“In determining the range referred to in subsection
3553(a)(4), the court shall apply the guidelines issued by
the Sentencing Commission . . . that were in effect on the
date of the previous sentencing of the defendant prior to
the appeal, together with any amendments thereto by any
act of Congress that was in effect on such date . . . .”). And,
in the seemingly even more analogous context of sentence
modification proceedings under 18 U.S.C. § 3582(c)(2), the
relevant statutory text has been understood by no less
seasoned an interpreter than the United States
Sentencing Commission in a way that led it similarly to

41a
require district courts to use the Guidelines provisions
applied at the original sentencing proceeding (as modified
only by the particular retroactive amendments that were
the basis for the § 3582(c)(2) motion) to calculate the GSR
for the modification proceedings themselves.
See
U.S.S.G. § 1B1.10(b)(1); see also 28 U.S.C. § 994(a)(2)(C)
(providing that the Commission shall promulgate policy
statements “that in the view of the Commission would
further the purposes set forth in [18 U.S.C. § 3553(a)(2)],
including the appropriate use of . . . the sentence
modification provisions set forth in” 18 U.S.C. § 3582(c)).
Thus, against that backdrop, I see little reason to
assume that Congress meant for a revisiting proceeding
under § 404(b) to be temporally distinct in such a
fundamental respect from other revisiting proceedings.
Indeed, in light of the well-known practice in other types
of revisiting proceedings of not setting the GSR to be used
in them on the basis of contemporary Guidelines, it is
reasonable to expect that if Congress did intend to depart
from that practice here it would have been at least as clear
in making that intention known as it was in pronouncing
in the “as if” clause that the otherwise inapplicable Fair
Sentencing Act would apply. See Martin, 974 F.3d at 13940.
c.
This understanding of § 404(b) is reinforced by the
First Step Act’s apparent purposes. Following the
enactment of the Fair Sentencing Act, some defendants
sentenced under the former disparity-tainted regime
were able to have their sentences revisited pursuant to 18
U.S.C. § 3582(c)(2), based on the retroactive amendments
that the Sentencing Commission promulgated in response
to the Fair Sentencing Act. See Dorsey, 567 U.S. at 273

42a
(explaining that the Fair Sentencing Act “require[d] the
Commission to change the Guidelines in the wake of the
Act’s new minimums”). But, given the limitations on
eligibility for § 3582(c)(2) relief, significant gaps to relief
remained -- individuals sentenced as career offenders, like
Concepcion, as well as those serving statutory mandatory
minimum sentences and those whose GSR otherwise
would not change as a result of the Commission’s
responsive amendments, were ineligible to have their
sentences revisited under § 3582(c)(2). See United States
v. Wirsing, 943 F.3d 175, 179 (4th Cir. 2019) (explaining
these gaps).
A reading of § 404(b) under which the Guidelines from
the original sentencing proceeding (as adjusted by the
impact of the retroactive application of the Fair
Sentencing Act) also serve as the starting point for
calculating the GSR for the revisiting proceeding enables
§ 404(b) to fill those gaps. See 164 Cong. Rec. S7020,
S7021 (daily ed. Nov. 15, 2018) (statement of Sen. Durbin)
(describing bill with the text ultimately passed in § 404 as
“giv[ing] a chance to thousands of people who are still
serving sentences for nonviolent offenses involving crack
cocaine under the old 100-to-1 rul[e] to petition
individually” for a sentence reduction). But such a reading
also ensures that § 404(b) fills them in a manner that,
sensibly, does not entitle the class of defendants to whom
this opportunity for relief has been extended to a form of
review of their original sentences based on a GSR
calculated under a new and more favorable set of
Guidelines than prevailed at their original sentencing just
because they happened to become eligible for post-Fair
Sentencing Act review later than those who were eligible
to secure it through the auspices of § 3582(c)(2). See

43a
United States v. Brown, 974 F.3d 1137, 1144 (10th Cir.
2020) (“Our review demonstrates that Congress, when
passing § 404, authorized only a limited change in the
sentences of defendants who had not already benefitted
from the Fair Sentencing Act. . . . It follows that the First
Step Act also does not empower the sentencing court to
rely on revised Guidelines instead of the Guidelines used
at the original sentencing.”); accord United States v.
Moore, 975 F.3d 84, 91 (2d Cir. 2020).
d.
Thus, I agree with the majority’s resolution of the first
temporal question that § 404(b) presents, which concerns
the proper means of calculating the GSR to be used at a
proceeding held pursuant to that provision. Like the
majority, I agree that the Guidelines to be used in
calculating the GSR for that type of proceeding -- at least
absent subsequent clarifying or retroactive amendments
to them -- are the ones that were used in setting the GSR
used at the original sentencing and not those in effect at
the time of the § 404(b) proceeding itself.8
I do not read any circuit to have expressly held that the
district court must apply the current Guidelines to determine the GSR
for a § 404(b) proceeding. And, given the nature of Concepcion’s
arguments to us, we need not decide whether intervening Guidelines
amendments that are merely clarifying, cf. U.S.S.G. § 1B1.10(a)(2)
(providing that “if a court applies an earlier edition of the Guidelines
Manual” due to ex post facto concerns, “the court shall consider
subsequent amendments [so long as they] are clarifying rather than
substantive changes”); United States v. Sarmiento-Palacios, 885 F.3d
1, 4-5 (1st Cir. 2018) (discussing the use of clarifying amendments in
remand proceedings), or that are themselves retroactive, see United
States v. Bethany, 975 F.3d 642, 652-53 (7th Cir. 2020) (concluding
that “although the district court could have exercised its discretion to
apply” retroactive Guidelines amendments to save the defendant the
8

44a
2.
We come, then, to the distinct and follow-on temporal
question that § 404(b) also requires us to resolve, which
concerns whether a district court conducting a proceeding
pursuant to that provision is just as temporally
constrained when it comes to the “whether to reduce”
question as it is in setting the GSR. But, deploying the
same interpretive logic that I deployed above to answer
this temporal question, I conclude that the majority is
wrong to resolve the temporal question in the constraining
manner that it does. For, as I will explain, the background
to, and the purposes of, § 404(b) require me to conclude,
“extra step of filing a motion under § 3582(c)(2),” “it was not required
to do so”); but see, e.g., United States v. Caraballo, 552 F.3d 6, 11 (1st
Cir. 2008) (noting that § 3582(c)(2) is unavailable to defendants
sentenced as career offenders where the retroactive amendment
sought to be considered is not a change to the career offender
Guideline); United States v. Stewart, 964 F.3d 433, 437-38 & 437 n.6
(5th Cir. 2020) (noting that for some defendants, such as career
offenders, ineligible for § 3582(c)(2) relief, the “prospect of relief
under the [Fair Sentencing Act] would prove illusory . . . if courts were
obligated to calculate sentencing ranges . . . without the benefit of”
those retroactive amendments promulgated in response to the Fair
Sentencing Act), should be accounted for in determining the
applicable GSR in § 404(b) proceedings. Nor for that same reason
need we address related questions concerning intervening factual
developments, cf. United States v. Ticchiarelli, 171 F.3d 24, 35 (1st
Cir. 1999) (providing that the scope of the appellate court’s remand
may determine the effect that may be given to such intervening
factual developments); U.S.S.G. § 1B1.10(b)(1) (providing that, in
§ 3582(c)(2) proceedings, the “court shall substitute only the
amendments listed in subsection (d) for the corresponding guideline
provisions that were applied when the defendant was sentenced and
shall leave all other guideline application decisions unaffected”
(emphasis added)), or intervening case law, see United States v.
Chambers, 956 F.3d 667, 672-74 (4th Cir. 2020), that might affect the
GSR even under the old Guidelines.

45a
unlike the majority, that the provision’s textual
ambiguities are best construed to permit a district court
in deciding whether to reduce the defendant’s original
sentence to account for post-sentencing developments
(whether factual or legal) no less than the majority agrees
a district court may account for them in deciding by how
much to reduce that sentence once it decides that some
reduction is required.
a.
The only possible source of the temporal limitation
that the majority would impose on the “whether to
reduce” determination in the text of § 404(b) itself would
appear to be found in that provision’s “as if” clause. But,
as we have seen, that clause merely mandates that the
statutory sentencing range -- and, by extension, the GSR
-- that must be used in the § 404(b) proceeding is the one
that obtained at the original sentencing proceeding as
adjusted in accord with the mandated retroactive
application of the Fair Sentencing Act. Thus, that clause
does not, by terms, purport to speak to this precise
temporal issue at all.9
Nor does § 404(b)’s “as if” clause impliedly speak to
that issue in light of the way it interacts with the canon
against superfluity. See In re Montreal, Me. & Atl. Ry.,
Ltd., 799 F.3d 1, 9 (1st Cir. 2015) (“[C]ourts should
Indeed, the fact that the only time frame referenced in the
“as if” clause is the time of the commission of the offense indicates
that Congress did not intend for the “as if” clause to dictate that a
district court imagine itself to be inhabiting an earlier point in time in
all respects. For, Congress could not have intended to direct a district
court in a § 404(b) proceeding to imagine what sentence it would make
sense to impose at a time when even the original sentencing
proceeding had not yet occurred.

9

46a
construe statutes to avoid rendering superfluous any
words or phrases therein.”). A construction of § 404(b)
that would confer on district courts the discretion to
consider intervening developments in deciding whether to
reduce a sentence would not render the “as if” clause
meaningless, even though it would permit a district court
to give weight to a favorable intervening change in the
Guidelines. Such a construction still treats that clause as
usefully performing the role of identifying the sentencing
range to be used in the § 404(b) proceeding by specifying
that it is the range that would apply if the Fair Sentencing
Act had been in effect at the time of the commission of the
underlying offense.
The majority does suggest that a separate textual
limitation on discretion -- not to be found within § 404 itself
-- compels the resolution of the temporal issue that it
embraces. The majority locates that limitation in 18
U.S.C. § 3582(c)(1)(B)’s grant of authority to “modify an
imposed term of imprisonment to the extent . . . expressly
permitted by statute.” Id. (emphasis added).
To the majority, this “expressly permitted” language
functions as a global clear-statement rule for sentencing
modification measures generally. Thus, the majority
concludes, this language requires us to read the express
grant of authority in § 404(b) as narrowly as possible when
it comes to the “whether to reduce” determination.
But, such a reading of the “expressly permitted”
language misconstrues the operation of § 3582(c)(1)(B),
which is merely a finality exception that does not itself
impose substantive limits. Cf. United States v. Triestman,
178 F.3d 624, 629 (2d Cir. 1999) (Sotomayor, J.) (reading
§ 3582(c)(1)(B) not to impose its own limitations but
merely to “note[] the authority to modify a sentence if

47a
modification is permitted by statute” (emphases omitted)
(quoting S. Rep. No. 98-225 (1984), reprinted in 1984
U.S.C.C.A.N. 3182, 3304)). Thus, insofar as the revisiting
proceeding at issue here is properly deemed a
“modification” proceeding, it is enough to satisfy that
textual requirement in § 3582(C)(1)(B) in my view that
§ 404(b) “expressly permit[s]” modification. And, that
being so, we must look to § 404(b) itself -- and not
elsewhere -- for any limits on the extent of the
modification that is allowed, precisely because that
provision does expressly permit a modification to be made.
See United States v. Kelley, 962 F.3d 470, 477 (9th Cir.
2020) (“[T]he First Step Act expressly permits a specific
type of sentence reduction, and we interpret and
implement such an independent congressional statute on
its own terms.”).
b.
What, then, are the limits that § 404(b) imposes when
it comes to the precise temporal question before us at this
juncture of the analysis, which concerns a district court’s
discretion as to whether to reduce a sentence once the
Fair Sentencing Act has been given its requisite
retroactive effect? Once again, because the text of § 404(b)
provides no clear answer, I find it most helpful to consider
the backdrop against which Congress enacted the
provision. See Martin, 974 F.3d at 139-40.
I do not mean to suggest that we may simply pick and
choose from the rules that govern previously established
federal sentencing frameworks in construing § 404(b) in
this connection. We have no warrant to select those
aspects of them that we like and to discard those that we
do not in determining the rules that are to be operative
under § 404(b).

48a
I do mean to suggest, however, that, insofar as the face
of § 404(b) is not clear one way or the other as to how it is
to be construed on a crucial interpretive point, then we
should apply the familiar tools of statutory interpretation
to resolve that ambiguity. And, as those familiar tools
include considerations of the background understandings
against which Congress legislated, there is good reason to
give interpretive weight to those understandings in
resolving the ambiguity at hand.
Indeed, the evident remedial purposes of the First
Step Act, see United States v. White, 984 F.3d 76, 89-90
(D.C. Cir. 2020) (detailing the remedial purpose of the
First Step Act and arguing that it should be understood in
light of that purpose), accord with following such an
interpretive course. They suggest, if anything, a reason to
presume that Congress would have wanted to confer no
less discretion in this context than it has conferred in
seemingly similar ones, especially given the discretionary
manner in which the federal sentencing framework as a
whole operates. Cf. Pepper, 562 U.S. at 488-91 (discussing
the “longstanding principle” granting sentencing courts
“broad discretion to consider various kinds of
information” (quoting United States v. Watts, 519 U.S.
148, 151 (1997))).
For that reason, I find it instructive in construing
Congress’s intent that it was well understood prior to
§ 404(b)’s passage that, on remand of a sentence, the
district court, once it has identified the applicable GSR for
that revisiting proceeding based on the Guidelines that
were in place at the time of the original sentencing, is still
free to consider post-sentencing developments in selecting
the new sentence in light of that anchoring GSR. See
Pepper v. United States, 562 U.S. 476, 490 (2011) (“In light

49a
of the federal sentencing framework . . . , we think it clear
that when a defendant’s sentence has been set aside on
appeal and his case remanded for resentencing, a district
court may consider evidence of a defendant’s
rehabilitation since his prior sentencing . . . .”). And I find
it instructive as well that the same was understood to be
true in the context of modification proceedings under 18
U.S.C. § 3582(c)(2), once the GSR has been set using the
old Guidelines. See U.S.S.G. § 1B1.10(b); id. § 1B1.10 cmt.
n.1(B). As the Commission has recognized, moreover, that
is true not only with respect to the “by how much”
question but also with respect to the threshold “whether”
question. See id. § 1B1.10 cmt. n.1(B)(iii) (“The court may
consider post-sentencing conduct of the defendant that
occurred after imposition of the term of imprisonment in
determining: (I) whether a reduction in the defendant’s
term of imprisonment is warranted; and (II) the extent of
such reduction . . . .”); see also Chavez-Meza v. United
States, 138 S. Ct. 1959, 1967 (2018) (assuming that postsentencing developments were properly before the
district court).
I thus see little reason to conclude that Congress must
have silently intended not to permit a district court to
exercise a similar amount of discretion pursuant to
§ 404(b) to consider things as they are at present. Rather,
I would read that cryptic text to have been intended to
permit a district court, in identifying any new sentence, to
account for new developments in the same manner just
described, given that they may be accounted for on a
remand or in a run-of-the-mill modification proceeding.
Of course, it would not make sense to conclude that
Congress intended in enacting § 404(b) to give its
beneficiaries extra-special treatment relative to their

50a
fellow intended beneficiaries of the Fair Sentencing Act.
That is in part why I agree with the majority that a district
court in a § 404(b) proceeding must derive the GSR from
the Guidelines in effect at the original sentencing.
But, as I have explained, the purpose and history of the
First Step Act demonstrate that Congress wanted
§ 404(b)-eligible defendants to have an opportunity for
relief at least roughly equivalent to that afforded to those
§ 3582(c)(2)-eligible defendants who already had an
opportunity to have their sentences revisited in light of the
changes effected by the Fair Sentencing Act. It thus, in
my view, counts rather strongly against the majority’s
approach to the temporal constraints that district courts
must labor under in conducting § 404(b) proceedings that
those defendants who seek reductions under that
provision would be worse off under it in this respect than
those who seek them under 18 U.S.C. § 3582(c)(2). After
all, it is clear that district courts revisiting sentences in
§ 3582(c)(2) modification proceedings are permitted to
give favorable post-sentencing developments weight in
deciding not just the extent of the reduction of a sentence
but also whether to reduce a sentence at all, even if those
developments may not be considered in calculating the
applicable GSR for the modification proceedings
themselves. See U.S.S.G. § 1B1.10 cmt. n.1(B)(iii).
I do recognize that it is merely Sentencing
Commission commentary that most clearly confirms as
much in the § 3582(c)(2) modification context. See
U.S.S.G. § 1B1.10(a)(1). But, that commentary does
reflect the Commission’s evident understanding of the
text of 18 U.S.C. § 3582(c)(2), which authorizes a district
court to “reduce” a prior sentence based on a retroactive
legal change.

51a
Thus, that commentary suggests to me that the
Commission understood that statutory text to be
susceptible of a construction that would read it
simultaneously to instruct district courts to calculate the
GSR to be used in the modification proceeding based on
the Guidelines in effect at the time of the original
sentencing (as adjusted by retroactive application of the
Fair Sentencing Act) and to take account of postsentencing developments in deciding whether to reduce
that sentence in light of that GSR. See U.S.S.G.
§ 1B1.10(b)(1); U.S.S.G. § 1B1.10 cmt. n.(1)(B)(iii). That is
significant, in my view, because § 404(b) similarly
authorizes district courts to “impose a reduced sentence”
based on the retroactive legal change brought about by
§ 404(b). Why not, then, conclude that Congress similarly
contemplated in this context that a district court could
operate in this same variable temporal manner, such that
it could rely on present-day knowledge in deciding
whether a reduction is warranted under § 404(b), even
though it must draw on the old Guidelines to calculate the
GSR that anchors that decision? See Martin, 974 F.3d at
139 (“[I]t is helpful to look at the parallels between section
3582(c)(2) and the First Step Act to resolve background
questions regarding the mechanics of the First Step
Act.”).10
Of course, if our aim is to construe § 404(b)’s text to
accord with the way § 3582(c)(2) had been understood in
It is important to emphasize that each ambiguity in § 404(b)
must be taken on its own terms. There is a difference between
construing an ambiguity using background context and ordinary
interpretive tools and importing an arbitrary limitation into § 404.
For example, I cannot see any reason to import the limitation on the
extent of a sentence reduction in § 3582(c)(2) proceedings, see
U.S.S.G. § 1B1.10(b)(2), into the § 404(b) context.
10

52a
the relevant respect, then I acknowledge that it is
important to account for the fact that § 3582(c)(2)
expressly refers to the 18 U.S.C. § 3553(a) factors while
§ 404(b) does not. But, I am not persuaded that this
difference between these two texts shows that Congress
intended to give district courts less discretion -temporally -- to remedy a past injustice based on a
retroactive change in the law under the First Step Act
than they have to remedy such an injustice in an ordinary
modification proceeding.
Implicit in the idea of deciding whether to impose a
reduced sentence is some consideration of the § 3553(a)
factors -- and that is no less true under § 404(b) than it is
under § 3582(c)(2). The majority itself acknowledges as
much in its recognition that the “original calibration of the
section 3553(a) factors” still properly informs the district
court’s decision whether to reduce a sentence. Maj. Op. at
21. Thus, the inclusion of a reference to § 3553(a) in
§ 3582(c)(2) but not in § 404(b) cannot in and of itself be
understood to suggest that no consideration of the
§ 3553(a) factors at all may be given in a § 404(b)
proceeding.
That, then, leaves only the possibility that the inclusion
of the reference to § 3553(a) in § 3582(c)(2) but not in
§ 404(b) supplies the basis for concluding that intervening
considerations may be given weight in the former type of
proceedings but not the latter. But, that, too, does not
follow.
Section 3582(c)(2)’s mandate to consider the § 3553(a)
factors does not itself purport to specify whether district
courts are to use the “new” or the “old” § 3553(a) factors
in doing so. Thus, it cannot be that the inclusion of the
bare reference to § 3553(a) in § 3582(c)(2) and its absence

53a
from § 404(b) compels drawing such a temporal distinction
those two types of proceedings when it comes to the
§ 3553(a) analysis that is necessarily relevant to each.
Put otherwise, even after comparing the text of
§ 3582(c)(2) and § 404(b), we necessarily come back to the
same basic temporal question that § 404(b) does not by its
terms purport to resolve: Must the § 3553(a) analysis be
informed only by things as they were, or can it also be
informed by things as they are? And, as I have explained,
precisely because the text of the First Step Act does not
clearly answer that question one way or the other, I see no
reason to construe it in a way that would render it out of
step with the way revisiting proceedings otherwise
proceed.
Indeed, the majority itself finds a new § 3553(a)
analysis permissible to some extent -- in deciding the
extent of a reduction if one is in order -- and yet it provides
no textual explanation for drawing this line where it does.
Nor has any other court, to my knowledge, found such a
textual basis.
A construction that would extend that same temporal
discretion to the “whether to reduce” determination also
makes good practical sense.
Like run-of-the-mill
modification proceedings, § 404(b) proceedings are in
many cases occurring well after a defendant’s original
sentencing proceeding. That makes it a potentially
difficult and senseless task to determine the “original
calibration” of the § 3553(a) factors. See United States v.
Rose, 379 F. Supp. 3d 223, 235 (S.D.N.Y. 2019) (“[G]iven
the length of the sentences at issue in crack-cocaine cases,
there is a high degree of likelihood that many of the judges
considering the First Step Act motion will not be the
original sentencing judge.”); see also, e.g., United States

54a
v. King, 423 F. Supp. 3d 481, 489 (M.D. Tenn. 2019)
(finding that because the defendant seeking a reduction
pursuant to § 404(b) was “sentenced more than a decade
and a half ago by a judge who has since retired” and
because the sentencing transcript demonstrated that the
defendant’s “sentence was very much tied to the statutory
mandatory minimum,” thus “beg[ging] the question of
whether the sentence would have been less if the statutory
floor were only ten instead of twenty years[,] . . . it falls on
this Court to make that determination and the only
effective way to do so is by considering the [§] 3553(a)
factors,” the use of which “also necessitates that the Court
consider [post-sentencing] rehabilitation”).
The reason to be wary of concluding that Congress
must have intended to impose such a bar as the majority
embraces would seem to be especially strong, moreover,
when the Supreme Court has recognized that such
intervening facts as a defendant’s admirable postsentencing conduct can be “highly relevant to several of
the § 3553(a) factors.” See Pepper, 562 U.S. at 491. And,
as I have noted, the Guidelines commentary expressly
permits consideration of post-sentencing conduct in
§ 3582(c)(2) sentence modification proceedings. See
U.S.S.G. § 1B1.10 cmt. n.1(B)(iii).
c.
For all of these reasons, then, it is a mistake in my view
to read § 404’s silence with respect to the temporal
questions that arise once the GSR is in place (based as it
must be on the old Guidelines) in the constraining manner
that the majority does with respect to the “whether to
reduce” determination. Such a reading requires us to
conclude that, with respect to the consideration of
intervening developments in deciding whether a sentence

55a
reduction is in order, Congress meant for people who were
relying on the Commission’s response to a disparity to be
better off than people relying on Congress’s own response
to that disparity.
3.
There remains, then, just one loose interpretive end
with regard to the framework that § 404(b) generally
establishes. It concerns the distinction that some courts
have drawn between intervening factual developments
(such as the defendant’s post-sentencing conduct or the
vacatur of his prior convictions) and intervening legal ones
(such as the advent of Guidelines amendments that would
be favorable to the defendant, even if they have not been
made retroactive). See, e.g., United States v. Robinson,
980 F.3d 454, 463 (5th Cir. 2020) (explaining that the Fifth
Circuit has precluded district courts from “consider[ing]
other post-sentencing changes in the law” aside from
those mandated by the Fair Sentencing Act, but noting
that the Fifth Circuit has “not h[eld] that [district] court[s]
cannot consider post-sentencing conduct” (quoting United
States v. Jackson, 945 F.3d 315, 321, 322 n.7 (5th Cir.
2019))); Kelley, 962 F.3d at 474 & n.4, 475 (holding that the
First Step Act “does not authorize the district court to
consider other legal changes that may have occurred after
the defendant committed the offense” but not addressing
whether it was permissible that the district court
considered that the defendant “had been a model inmate
during her incarceration”).
The courts that have concluded that § 404(b) draws
this line appear to have relied on the expressio unius canon
to tease out the First Step Act’s meaning, treating the “as
if” clause’s singling out of that one legal change as a sign
that Congress impliedly intended to preclude the

56a
consideration of any other legal change. See United
States v. Hegwood, 934 F.3d 414, 418-19 (5th Cir. 2019);
Kelley, 962 F.3d at 475.11 The government argues that we
should do the same. But, I do not agree.
Although the “as if” clause refers only to the Fair
Sentencing Act, it does not do so, as I have explained, in a
way that necessarily gives rise to a preclusive inference
with respect to the propriety of giving mere consideration
in selecting a sentence to intervening legal developments
other than the one brought about by the clause itself. Nor
am I alone in so concluding. See United States v. Hudson,
967 F.3d 605, 612 (7th Cir. 2020) (“The First Step Act does
not prevent the court from considering [the change to the
defendant’s career offender status] when deciding
whether the sentence imposed is ‘sufficient, but not
greater than necessary,’ under 18 U.S.C. § 3553(a). . . .
‘[T]oday’s Guidelines may reflect updated views about the
seriousness of a defendant's offense or criminal history.’”
(quoting United States v. Shaw, 957 F.3d 734, 742 (7th Cir.
2020))); United States v. Harris, 960 F.3d 1103, 1106 (8th
Cir. 2020) (“[T]he § 3553(a) factors in First Step Act
sentencing may include consideration of the defendant’s
advisory range under the current guidelines.”).
I thus find myself in a by-now-familiar position: I face
the question under § 404(b) about how much discretion a
district court has to account for present realities that the
text of that provision does not answer with any clarity.
And so, for me, the right way through is to follow the nowBecause these courts were considering requests for a new
Guidelines calculation accounting for legal changes, which I agree is
impermissible, it is not clear that they would preclude consideration
of legal changes against a GSR that does not itself reflect those
changes.

11

57a
familiar approach of resolving that ambiguity in a manner
that most aligns § 404(b) with other revisiting
proceedings.
Following that course, I find it significant that this
Court has repeatedly recognized that legal changes, even
when not used to set the GSR that serves as the
benchmark, can inform the district court’s exercise of its
discretion to select a reasonable sentence in light of that
benchmark. See, e.g., United States v. Frates, 896 F.3d
93, 102 (1st Cir. 2018) (recognizing the distinction between
recalculating the GSR on remand to account for
intervening nonretroactive amendments, which would
“circumvent the Sentencing Commission’s nonretroactivity determination,” and considering intervening
legal changes that reflect “the Commission’s revised
policy position” in exercising the “discretion to select an
appropriate sentence”); United States v. Godin, 522 F.3d
133, 136 (1st Cir. 2008) (per curiam) (noting that the
Sentencing Commission’s “current thinking” about, for
example, who may be deemed a career offender, may
properly “influence . . . the judge’s ultimate discretionary
choice of sentence”); United States v. Rodriguez, 630 F.3d
39, 42 (1st Cir. 2010) (finding that courts that must “start
with old Guidelines” can still “consult new ones in choosing
suitable sentences,” as “Guidelines revisions [can] help
[courts] select reasonable sentences that (among other
things) capture the seriousness of the crimes and impose
the right level of deterrence”). And, I note, we have come
to that conclusion despite the express directions that
Congress has given about which legal changes could be
relied upon to calculate the applicable GSR. See, e.g., 18
U.S.C. § 3742(g)(1); see also U.S.S.G. § 1B1.11(b)(1).
To be sure, this body of precedent concerns the proper

58a
approach for a district court to take on the remand of a
sentence from a direct appeal and that is a type of
revisiting proceeding in which the prior sentence is -strictly speaking -- no longer in place. Here, by contrast,
there is a presumptively valid sentence from which a
reduction is being sought. For that reason, I suppose, it is
possible to understand sentence selection in this context
to entail not simply a choice of length but also a distinct
initial question as to whether the original sentence
remains appropriate -- in other words, to entail both a
“whether to reduce” inquiry and a “by how much to
reduce,” insofar as a reduction is warranted at all, inquiry.
But, even if one accepts that it is not artificial to divvy
up the task of sentence selection under § 404(b) in that
two-step manner, that very same type of task is required
in a § 3582(c)(2) modification proceeding. There, too, a
reduction from a sentence that is presently in place is
being sought based on an expressly identified retroactive
legal change. I know of no precedent, however, that holds
that a subsequent, nonretroactive Guidelines change
favorable to the defendant may not even be considered -once the GSR has been calculated for use at the
modification proceeding independent of such a change -in deciding whether to modify the sentence in such
proceedings. And I certainly know of none suggesting
that while such a legal change may not be considered for
that purpose it may be considered in determining the
extent of the modification.12
I am aware that in Dillon, 560 U.S. at 831, the Supreme Court
rejected the defendant’s contention that the district court should have
considered intervening legal changes. The Court concluded that
because “the aspects of his sentence that Dillon seeks to correct were
not affected by the Commission’s amendment to § 2D1.1, they are
12

59a
Thus, here, too, in the face of the relevant ambiguity
occasioned by § 404(b)’s brief text, I think it sensible to
proceed on the understanding that Congress intended for
the conduct of revisiting proceedings under that provision
to be similar to the conduct of them more generally. And,
in this limited respect, I note that I am actually in
interpretive agreement with the majority, which similarly
sees nothing in § 404(b) that would permit factual and
legal considerations to be treated differently as a temporal
matter. See also Jackson, 945 F.3d at 321 (recognizing
outside the scope of the proceeding authorized by § 3582(c)(2), and the
District Court properly declined to address them.” 560 U.S. at 831.
But, Dillon requested a recalculation of the sentence to correct a
Booker error and adjust the criminal-history category. See id.; see
also United States v. Jordan, 162 F.3d 1, 3-5 (1st Cir. 1998) (concluding
that § 3582(c)(2) did not permit defendant to obtain benefit of U.S.S.G.
§ 5K2.0 departure not applied at original sentencing). As I have
explained, this Court has recognized the difference between
accounting for intervening legal and factual developments to
recalculate the Guidelines range and considering them “as a
discretionary factor.” Frates, 896 F.3d at 102-03.
I am also aware that a district court under § 3582(c)(2)
generally cannot reduce the sentence below the GSR that obtains
after having been adjusted to account for retroactive amendments.
See Dillon, 560 U.S. at 822 (“Except in limited circumstances, . . .
[U.S.S.G.] § 1B1.10(b)(2)(A) forecloses a court acting under §
3582(c)(2) from reducing a sentence ‘to a term that is less than the
minimum of the amended guideline range.’”). But, Guidelines changes
that are not retroactive could in that context still impact where to set
the sentence in relation to that range (especially if the original
sentence was set at its higher end), and, in any event, nothing in § 404
suggests that the limitation on the extent of a reduction that is
allowable in § 3582(c)(2) modification proceedings applies to § 404(b)
proceedings.
See U.S.S.G. § 1B1.10(a)(1) (referring only to
§ 3582(c)(2) sentence reductions). Compare First Step Act § 404, with
18 U.S.C. § 3582(c)(2) (providing that such a reduction must be
“consistent with applicable policy statements by the Sentencing
Commission”).

60a
that disparate treatment of post-sentencing legal and
factual developments “make[s] little sense”).
C.
To sum up, then, I do not agree with the majority’s
bifurcated treatment of the temporal issue that § 404(b)
requires us to resolve. In my view, when confronted with
an eligible defendant’s § 404(b) motion, the district court
must proceed as follows.
The district court first must determine the statutory
sentencing range and the GSR to be used in assessing
whether to reduce the defendant’s sentence as requested.
In making those determinations, moreover, the district
court must rely on the relevant provisions of the Fair
Sentencing Act as if they had been in effect when the
offense was committed, while using the Guidelines that
were operative at the time of the original sentencing
proceeding (save for the potential caveats I have noted)
and not those presently in effect.
But, although these conclusions align me with the
majority’s approach under § 404(b) to this point, the logic
that leads me to them requires me to break with its view
of how a district court conducting a § 404(b) proceeding
should act thereafter. For, in my view, given the purposes
and background against which Congress legislated in
passing the First Step Act, the district court, having set
the range in the manner just described, is as free to
consider intervening developments (both factual and
legal) in making the gating decision under § 404(b) as to
whether to impose a reduced sentence (based on a GSR in
whose determination such developments played no role)
as it is under the majority’s approach to consider those
developments in making the follow-on assessment of how

61a
much to reduce the original sentence.
III.
With this framework in mind, I am now finally ready
to take up the question of whether Concepcion is right to
contend that, in this particular case, the District Court
abused its discretion in declining to reduce his sentence. I
conclude that he is -- in part.
I am not persuaded by Concepcion’s contention that
the District Court abused its discretion by refusing to use
the Guidelines in place at the time of the § 404(b)
proceeding to calculate the newly applicable GSR. For the
reasons that I have already set forth at some length, I see
no basis for construing § 404(b) to be such an outlier
relative to other provisions structuring revisiting
proceedings.
But, I also am not persuaded by Concepcion’s
contention, which I have not yet addressed, that the
District Court abused its discretion when it failed to
conduct a rebalancing of the § 3553(a) factors with respect
to its assessment of whether subsequent factual
developments -- such as those that Concepcion highlighted
pertaining to his admirable post-sentencing conduct. For,
even if I were to assume, as Concepcion contends, that
such a rebalancing is obligatory (as opposed to merely
permissible) under § 404(b), I still see no ground for
finding error on this score in his case.
We have previously recognized that “simply because
the district court didn’t expressly mention” intervening
developments in its ruling on a sentence reduction motion
“doesn’t mean it didn't consider” them. United States v.

62a
Rodríguez-Rosado, 909 F.3d 472, 480 (1st Cir. 2018). And,
it is a familiar proposition that a sentencing court is not
required to “verbalize its evaluation of each and every
[§] 3553(a) factor,” United States v. Reyes-Rivera, 812
F.3d 79, 89 (1st Cir. 2016), or to “afford each of the
§ 3553(a) factors equal prominence,” United States v.
Sosa-González, 900 F.3d 1, 5 (1st Cir. 2018). Instead, the
district court only must “set forth enough to satisfy the
appellate court that [it] has considered the parties’
arguments and has a reasoned basis for exercising [its]
legal decisionmaking authority.” Rita v. United States,
551 U.S. 338, 356 (2007).
The fact that a district court does not consider a
sentence on a blank slate under § 404(b) must be kept in
mind as well in evaluating the district court’s explanation
of its decision in a proceeding held pursuant to that
provision. Cf. Chavez-Meza, 138 S. Ct. at 1967 (concluding
that, when considering an appeal from a § 3582(c)(2)
sentence modification, reviewing courts “need not turn a
blind eye” to the reasons the judge gave at the initial
sentencing).
For, because intervening factual
developments might impact some elements of the
§ 3553(a) analysis while leaving others unaffected, a
district court’s failure to highlight intervening changes
may only suggest “that the district court may have been
unimpressed or unpersuaded by” them. RodríguezRosado, 909 F.3d at 480.
Thus, even if Concepcion is right that a present-day
rebalancing of the § 3553(a) factors is required under
§ 404(b), I conclude that the explanation that the District
Court provided here was sufficient to assure us that it had
a “reasoned basis for exercising [its] legal decisionmaking
authority,” Chavez-Meza, 138 S. Ct. at 1966 (quoting Rita,

63a
551 U.S. at 356), with respect to its decision not to reduce
the sentence based on the intervening factual
developments that Concepcion identified, see id.
(assuming that the “reasoned basis” standard applied in
the § 3582(c)(2) context and finding it satisfied where the
judge -- who had also imposed the defendant’s original
sentence -- did not address the parties’ arguments about
the defendant’s post-sentencing conduct while in prison).
Accordingly, there was no abuse of discretion here in this
regard.
I do note, though, that my reason for so concluding is
not the same as the majority’s.
Under its view,
intervening factual considerations may not be considered
in making the “whether to reduce” determination. Under
mine, by contrast, those considerations may be
considered. In fact, it is only because -- as far as I can tell
– Concepcion’s claim of error on this score has no merit in
his particular case that I reject it.
That brings us, then, to Concepcion’s final contention,
which is that the District Court abused its discretion in
declining to reduce his sentence because it failed to
recognize that it could consider intervening legal changes
-- specifically, the Commission’s intervening changes to
the career offender Guideline -- in his § 404(b) proceeding.
Here, I am persuaded by Concepcion’s challenge.
The District Court appears to have declined to
consider that intervening change because it was of the
view that it was barred -- as a matter of law -- from
considering such intervening legal developments in
exercising its discretion in any respect under § 404(b) of
the First Step Act. See United States v. Concepcion, No.
07-10197, 2019 WL 4804780, at *3-5 (D. Mass. Oct. 1,

64a
2019).13 This aspect of the District Court’s analysis, of
course, causes no concern for the majority. In its view, the
District Court correctly ascertained this legal bar to its
exercise of discretion, given that such considerations could
only come into play at what the majority describes as the
second step of the inquiry -- which concerns only the
extent of the reduction and not whether one is needed at
all, and which the majority views the District Court as
never having reached.
But, for the reasons I have explained, I read § 404(b)
to permit a district court to consider post-sentencing
developments once it has determined the proper GSR,
based on the Fair Sentencing Act’s retroactive
application. I thus understand the District Court here to
have misapprehended the scope of its discretion -- as a
matter of law -- to consider the fact that Concepcion may
no longer qualify as a career offender under current
Guidelines in making its gating determination about
whether to reduce the sentence at all.14
In assessing whether the First Step Act permits
“consider[ation] [of] any intervening changes in the law other than
those made by the Fair Sentencing Act,” the District Court relied on
the Fifth Circuit’s analysis in Hegwood and concluded that, because
“Amendment 798 derives from an entirely different source” than the
Fair Sentencing Act, it is “not clear that Amendment 798’s changes
are a permissible ground for resentencing under the First Step Act.”
Concepcion, 2019 WL 4808780, at *3-4 (citing Hegwood, 934 F.3d at
418). The District Court’s analysis of its possible power to take
account of this Guidelines change is best read to reflect its legal view
that the First Step Act barred it from considering that new legal
development and then its separate assessment -- outside of the Act -of whether 18 U.S.C. § 3582(c)(2), see id. at *4, or the Godin/Ahrendt
doctrine, see id. at *5 & n.1, nonetheless permitted it to consider the
development.
14
Although the majority notes that the District Court
13

65a
Such a misapprehension about the extent of the
discretion that a statute confers is -- as I noted at the
outset of this journey -- a classic abuse of discretion. See
United States v. Snyder, 136 F.3d 65, 67 (1st Cir. 1998)
(“[A] district court by definition abuses its discretion when
it makes an error of law.” (quoting Koon v. United States,
518 U.S. 81, 100 (1996))). Thus, while the majority affirms
the District Court’s decision to deny Concepcion’s motion
for a sentence reduction pursuant to § 404(b), I would
vacate and remand the District Court’s decision denying
Concepcion § 404(b) relief, so that the District Court may
consider whether to reduce the sentence on the proper
understanding that it may consider the impact of the
change to the career offender Guideline.
I understand that the District Court on remand might
well reach the same result -- perhaps based on its
reasoning about the complexity of any recalculation of the
GSR that it invoked in discussing Godin/Ahrendt,
Concepcion, 2019 WL 4804780, at *5 & n.1. But, I am
hesitant to make that assumption when the District Court
was misinformed about what § 404(b) itself permitted it to
do. Cf. United States v. Taylor, 848 F.3d 476, 500 (1st Cir.
2017) (remanding even upon “recogniz[ing] that [the]
sentence on remand may be unchanged,” because “the
great latitude possessed by the district court . . . makes it
“consider[ed] the amended career offender guideline, noted that the
Sentencing Commission had declined to make it retroactive, and
decided not to pantomime it as a matter of discretion,” Maj. Op. at 2829, the District Court’s consideration of Amendment 798 was,
crucially, undertaken only outside the rubric of the First Step Act. As
discussed supra note 10, the District Court’s opinion makes clear that
it understood the First Step Act not to permit it to consider
Amendment 798 as a ground for resentencing under that Act.

66a
all the more important that the district judge exercise a
fully informed discretion” (quoting United States v.
Hernandez Coplin, 24 F.3d 312, 320 (1st Cir. 1994))).15
IV.
Given the deferential standard of review that we must
apply, in many -- maybe most -- instances concerning
§ 404(b), the legal difference between my approach and
the majority’s will not matter, practically speaking. In
that respect, I agree that there is not that much “daylight”
between my approach and the majority’s.
Nonetheless, Concepcion’s case does illustrate how
this legal difference might very well matter in some
instances. Cf. Godin, 522 F.3d at 136; Frates, 896 F.3d at
103-04. And, in cases involving intervening factual
developments, I would think the legal difference might be
especially significant.
Thus, while I do not agree with the majority’s
disposition in this case, I also wish to emphasize my
broader concern about construing the First Step Act in a
manner that diminishes its remedial impact. This
measure represents a rare instance in which Congress has
recognized the need to temper the harshness of a federal
Because I find the District Court’s error here to inhere in its
misunderstanding about its discretion to consider intervening legal
developments, this case does not pose the distinct question whether it
would be permissible for a district court to refuse categorically to
consider intervening developments, while understanding that it had
the legal authority to do so. I do note, though, that this Court’s
decision in Rodríguez-Rosado, 909 F.3d at 481, though also not
addressing a categorical refusal, did hold that district courts are not
required to consider post-sentencing rehabilitation in § 3582(c)(2)
sentence modification proceedings, even while recognizing that such
evidence can be relevant to the § 3553(a) analysis.
15

67a
sentencing framework that is increasingly understood to
be much in need of tempering. Indeed, the First Step
Act’s very title signals Congress’s interest in having more
rather than less done in that regard going forward.
Accordingly, given that the text of § 404(b) is less than
clear in the relevant respect, I see no reason to construe it
in a way that would attribute to Congress an intent to
constrain district courts from exercising the remedial
discretion that they are accustomed to exercising when
revisiting a sentence that may have been too harsh when
first imposed. I thus respectfully dissent.

68a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
UNITED STATES OF
AMERICA
v.
CARLOS
CONCEPCION,
Defendant.
YOUNG, D.J.

)
)
)
)
)
)
)
)
)

CRIMINAL ACTION
No. 07-10197-WGY

October 1, 2019

MEMORANDUM & ORDER
The Court here considers the motion of Carlos
Concepcion (“Concepcion”) for resentencing under the
First Step Act of 2018, Pub. L. No. 115-391, 132 Stat. 5194
(2018) (“First Step Act”). Def.’s Mot. Imposition Reduced
Sentence Section 404 First Step Act (“Def.’s Mot.
Reduced Sentence”), ECF No. 69. The motion requires
the Court to consider the reach of section 404 of that Act.
I.

Prior Proceedings

In 2009, this Court sentenced Concepcion to 228
months of incarceration followed by eight years of
supervised release pursuant to section 3553(a) of title 18
of the United States Code. Order, ECF No. 38.
The Court sentenced Concepcion for the offense of
possession with the intent to distribute five or more grams
of cocaine base under 21 U.S.C. § 841(a)(1). See id.;

69a
Criminal Compl., ECF No. 1. In his plea, Concepcion
admitted that he sold 13.8 grams of crack cocaine, a form
of cocaine base. Change Plea Tr. 17:1-15, ECF No. 42; see
DePierrre v. United States, 564 U.S. 70, 78, 89 (2011).
The statutory term of incarceration for this offense at
the time of his sentencing was between a mandatory five
years and forty years. 21 U.S.C. § 841(b)(1)(B)(iii) (2009)
(amended 2010); see also Def.’s Mot. Reduced Sentence 3;
Govt.’s Resp. Def.’s Mot. Relief First Step Act (“Govt.’s
Resp.”) 2, ECF No. 78.
The statutory term of
incarceration for this offense when the defendant had a
prior felony drug conviction, as Concepcion did, was from
a mandatory minimum of ten years to life. 21 U.S.C.
§§ 841(b)(1)(B), 851; see also Def.’s Mot. Reduced
Sentence 3; Govt.’s Resp. 2.
Concepcion’s designation as a career offender under
the Sentencing Guidelines further impacted his sentence.
See Concepcion PSR 6; Concepcion Sentencing Tr. 8:7-11,
14:11-14, ECF No. 43. A defendant is a career offender
under the Sentencing Guidelines if (1) he “was at least
eighteen years old at the time [he] committed the . . .
offense of conviction,” (2) the “offense of conviction is a
felony that is either a crime of violence or a controlled
substance offense,” and (3) he “has at least two prior
felony convictions of either a crime of violence or a
controlled substance offense.” U.S.S.G. § 4B1.1(a).
At the time that this Court sentenced him, Concepcion
had prior convictions for, among other offenses, a
qualifying drug offense, armed robbery, armed
carjacking, and assault and battery with a dangerous
weapon. Concepcion PSR 12-13. These prior convictions
designated him as a career offender. See id. at 16;
Concepcion Sentencing Tr. 8:7-11, 14:11-14.
The

70a
applicable guideline range for a career offender whose
offense of conviction has a maximum sentence of life,
which Concepcion’s did in 2009, is 262 to 327 months. See
Concepcion Sentencing Tr. 22:13-25; Def.’s Mot. Reduced
Sentence 2; Govt.’s Resp. 1, 4, 7.
II.

Application of the Fair Sentencing Act

Today, after the passage of the Fair Sentencing Act of
2010, Pub. L. No. 111-220, 124 Stat. 2372 (2010), the
maximum sentence for Concepcion’s base offense with a
prior felony drug conviction is thirty years. See 21 U.S.C.
§§ 841(b)(1)(C), 851.
The applicable guideline range for a career offender
whose offense of conviction has a maximum sentence of
thirty years is 188 to 235 months. See U.S.S.G. § 4B1.1(a);
Def.’s Mot. Reduced Sentence 7; Govt.’s Resp. 6. This
range still encompasses Concepcion’s 2009 228-month
sentence. If, however, due to intervening developments
and jurisprudence, Concepcion is no longer a career
offender, his guideline range today would be significantly
lower, no longer encompassing his 228-month sentence.
See Counseled Reply Govt.’s Opp’n Pro Se Mot. Relief
First Step Act, Request Hearing (“Reply”) 8, ECF No. 82.
III.

Analysis

Concepcion argues that, given the relationship of the
sentence imposed to the original and now revised
sentencing guidelines, proportionality and fairness
warrant resentencing. Def.’s Mot. Reduced Sentence 7.
He also proffers a somewhat convoluted argument that,
after Amendment 798 to the Sentencing Guidelines, he is
no longer a career offender and should be resentenced on
that basis. See Reply 7-8, ECF No. 82. The Court
addresses these issues in order.

71a
A. Section 404 of the First Step Act
Section 404 of the First Step Act (“Section 404”) states
that a district court that sentenced a defendant for a crime
whose statutory penalties the Fair Sentencing Act
modified “may . . . impose a reduced sentence as if sections
2 and 3 of the Fair Sentencing Act of 2010 . . . were in effect
at the time the covered offense was committed.” First
Step Act § 404(b). The First Step Act further specifies
that nothing in Section 404 “shall be construed to require
a court to reduce any sentence.” Id. § 404(c).
The Government agrees that “[b]ecause the Fair
Sentencing Act reduces Concepcion’s mandatory
penalties and his guideline range, this Court may consider
whether to reduce his sentence.” Govt.’s Resp. 4.
The Government emphasizes, however, that
Concepcion’s 2009 sentence is still within the authorized
range after the passage of the Fair Sentencing Act. Id. at
6-8. This logic persuades the Court. If Concepcion came
before the Court today and the Court considered only the
changes in law that the Fair Sentencing Act enacted, his
sentence would be the same.
B. Proportionality
At the time of his sentencing, Concepcion’s sentence
was almost three years below the floor of the thenapplicable guideline range. See Def.’s Mot. Reduced Sent.
2; see also Govt.’s Resp. 1. Today, his 228-month sentence
approaches the top of the applicable guideline range (if he
remains a career offender). Concepcion argues that, at a
minimum, he ought be resentenced so that his sentence
bears the same proportional relationship to the present
guidelines framework as it did when he was sentenced.
Def.’s Mot. Reduced Sent. 6-7; Reply 6-7.

72a
This Court disagrees. Concepcion’s original sentence
was carefully crafted to apply the factors in section 3553(a)
of title 18 of the United States Code. The Court fully
explained the reasons for the sentence at the time it was
imposed. To grope for some sort of “proportionality” to
mere guidelines is to exalt their importance beyond the
influence they actually played at the time of sentencing.
In this Court, the statutory factors and the nuanced, factand case-specific arguments of counsel are, and have been
since United States v. Booker, 543 U.S. 220 (2005), the
major determinants of a criminal sentence. Today, the
Sentencing Guidelines are precisely that -- guidelines.
United States v. West, 552 F. Supp. 2d 74, 79 (D. Mass.
2008). Even then, the Court routinely consults the
available databases of sentences actually imposed for like
crimes better to determine the weight to be attributed to
the sentencing guidelines. The sentence imposed on
Concepcion was fair and just. It remains so today.
C. Amendment 798
Concepcion seems also to argue that the Court should
resentence him to consider the Sentencing Commission’s
changes to the career offender guideline in Amendment
798. Reply 7-8; see generally U.S.S.G. §§ 4B1.1-4B1.2;
United States Sentencing Comm’n, United States
Sentencing Manual Suppl. App. C, Amend. 798, at 118-24
(Nov. 1, 2018) (“Amendment 798”).
To the extent that Concepcion requests that the Court
resentence him under the First Step Act to consider
Amendment 798, his entreaty is unavailing as Section 404
does not authorize such relief.
To begin with, when it applies, Section 404 does not
authorize a plenary resentencing.
This Court

73a
understands section 3582(c)(1)(B) of title 18 of the United
States Code to provide the basis for relief pursuant to
Section 404. See United States v. Martinez, No. 04-cr-4820-JSR, 2019 U.S. Dist. LEXIS 98220, at *9-10 (S.D.N.Y.
June 10, 2019) (concluding that 3582(c)(1)(B) provides
authority for motions under First Step Act as that section
applies when a statute lowers an applicable sentencing
range). Section 3582(c)(1)(B) specifies that a court may
not resentence a defendant for any reason except “to the
extent otherwise expressly permitted by statute.” 18
U.S.C. § 3582(c)(1)(B); see also United States v. Holmes,
No. 02-24, 2019 U.S. Dist. LEXIS 139324, *16-17 (D.D.C.
Aug. 17, 2019) (“Section 404(b) permits an adjustment to
an otherwise final sentence only as expressly
authorized . . . and does not entitle a defendant to a
plenary resentencing hearing.”). But see United States v.
Payton, No. 07-20498-1,3 2019 U.S. Dist. LEXIS 110292,
at *10-11 (E.D. Mich. July 2, 2019) (declining to “turn a
blind eye to the changes in the law and Guidelines which
have gone into effect since 2008” when resentencing under
Section 404).
The First Circuit has not addressed whether a court
facing a motion under Section 404 may consider any
intervening changes in the law other than those made by
the Fair Sentencing Act. The Fifth Circuit, however, has
analyzed this issue as follows:
It is clear that the First Step Act grants a district
judge limited authority to consider reducing a
sentence previously imposed. The calculations
that had earlier been made under the Sentencing
Guidelines are adjusted “as if” the lower drug
offense sentences were in effect at the time of the
commission of the offense. That is the only

74a
explicit basis stated for a change in sentencing. In
statutory construction, the expression of one
thing generally excludes another. The express
back-dating only of Sections 2 and 3 of the Fair
Sentencing Act of 2010 -- saying the new sentence
will be conducted “as if” those two sections were
in effect “at the time the covered offense was
committed” -- supports [the conclusion] that
Congress did not intend that other changes were
to be made as if they too were in effect at the time
of the offense.
United States v. Hegwood, 934 F.3d 414, 418 (5th Cir.
2019) (citation omitted), petition for cert. filed, No. 19-5743
(U.S. Aug. 28, 2019). The Fifth Circuit went on to
summarize its holding with respect to the reach of
resentencing under Section 404:
The mechanics of the First Step Act sentencing
are these. The district court decides on a new
sentence by placing itself in the time frame of the
original sentencing, altering the relevant legal
landscape only by the changes mandated by the
2010 Fair Sentencing Act.
Id.
Amendment 798’s changes go beyond the scope that
the First Step Act “expressly permit[s]” a court to
consider when imposing a reduced sentence pursuant to
Section 404. Section 404 references the Fair Sentencing
Act. First Step Act § 404(b). The Fair Sentencing Act, of
course, addresses the disparity in sentencing between
crack and powder cocaine offenses. See Dorsey v. United
States, 567 U.S. 260, 264 (2012). Amendment 798 derives
from an entirely different source. It constitutes the

75a
Sentencing Commission’s response to the void-forvagueness jurisprudence of the Supreme Court expressed
in Johnson v. United States, 135 S. Ct. 2551, 2557-61
(2015), but declared inapplicable to the Sentencing
Guidelines in Beckles v. United States, 137 S. Ct. 886, 89495 (2017). It is thus not clear that Amendment 798’s
changes are a permissible ground for resentencing under
the First Step Act.
Concepcion fares no better if the Court construes his
Amendment 798 argument as requesting independent
relief under section 3582(c)(2) of title 18 of the United
States Code. Section 3582(c)(2) provides that a court may
modify a final term of imprisonment when the defendant
was “sentenced to a term of imprisonment based on a
sentencing range that has subsequently been lowered by
the Sentencing Commission . . . if such a reduction is
consistent with applicable policy statements issued by the
Sentencing Commission.” While Amendment 798 may
have lowered Concepcion’s sentencing range, modifying
his sentence on this basis would not be “consistent with
applicable policy statements” because the Sentencing
Commission did not make Amendment 798’s changes
retroactive. See U.S.S.G. § 1B1.10(b)(1) (2009) (directing
court on section 3582(c)(2) motion to determine the
“amended guideline range that would have been
applicable to the defendant if the amendment(s) to the
guidelines listed in subsection (d) had been in effect at the
time the defendant was sentenced”); id. § 1B1.10(d)
(omitting Amendment 798 from list of retroactive
guideline amendments in subsection (d)); Dillon v. United
States, 560 U.S. 817, 821 (2010) (recognizing that a motion
under section 3582(c)(2) authorizes a court to reduce a
defendant’s term of imprisonment “[w]hen the

76a
Commission
makes
a
Guidelines
amendment
retroactive”); United States v. Godin, 522 F.3d 133, 135
(1st Cir. 2008) (per curiam) (“The Sentencing
Commission’s decision not to make the amendment
retroactive means the defendant is not entitled, under the
procedure set forth in 18 U.S.C. § 3582(c)(2), to further
proceedings in which the district court . . . may choose to
adjust the sentence employing the more lenient
amendment to calculate the guideline range.”).
The First Circuit retains the discretionary authority to
remand a case for resentencing based on non-retroactive
amendments to the Sentencing Guidelines in a narrow
sub-set of cases. See United States v. Frates, 896 F.3d 93,
100-03 (1st Cir. 2018) (summarizing “Godin/Ahrendt
Doctrine” permitting remand to district court to
resentence defendant based on Sentencing Commission’s
subsequent non-retroactive amendments to Sentencing
Guidelines) (citing United States v. Ahrendt, 560 F.3d 69,
78-80 (1st Cir. 2009); Godin, 522 F.3d at 134-36). These
cases suggest that remand is appropriate when (1) the
Sentencing Commission adopts substantive, nonretroactive (2) that is adopted before the defendant’s
sentence becomes final on appeal, and (3) the amendment
would have lowered the defendant’s guideline range if it
had been in effect at the initial sentencing. See Frates,
896 F.3d at 102.
Even taking the First Circuit’s description of its own
authority to remand as a suggestion that district courts
may independently consider resentencing in such
circumstances, this doctrine does not apply here for two
reasons. First, Concepcion’s sentence has already become
final on appeal. ECF No. 45. The First Step Act
authorizes a resentencing for defendants whose sentences

77a
would be different after the Fair Sentencing Act but does
not render sentences non-final for other reasons. Second,
this doctrine ordinarily does not apply if resentencing
would be complex, as it would in this case without ready
access to the charging documents.1 See Frates, 896 F.3d
To determine whether Amendment 798 would reduce
Concepcion’s sentence, this Court would need determine whether any
of his prior offenses constitute predicate offenses for the career
offender designation today. See U.S.S.G. § 4B1.2(a). This would
require determining whether, in 1997, Concepcion was convicted of an
intentional form of the Massachusetts offenses of armed carjacking,
armed robbery, or assault and battery with a dangerous weapon. See
Concepcion PSR 13; United States v. Starks, 861 F.3d 306, 324 (1st
Cir. 2017) (Massachusetts armed robbery is not categorically a violent
felony under the Armed Career Criminal Act); United States v.
Windley, 864 F.3d 36, 39 (1st Cir. 2017) (per curiam) (reckless form of
Massachusetts assault and battery with a dangerous weapon is not a
violent felony under the Armed Career Criminal Act); United States
v. Tavares, 843 F.3d 1, 13 (1st Cir. 2016) (Massachusetts assault and
battery with a dangerous weapon is a divisible offense for purposes of
the career offender guideline’s crime of violence standard); United
States v. Willings, 588 F.3d 56, 58 n.2 (1st Cir. 2009) (decisions
construing the phrase “violent felony” in the Armed Career Criminal
Act “inform the construction” of the phrase “crime of violence” in the
career offender guideline); Beazer v. United States, 360 F. Supp. 3d
1, 16 (D. Mass. 2019) (Massachusetts carjacking is not categorically a
violent felony under the Armed Career Criminal Act).
To conduct this inquiry, the Court would “need to look at
Shepard documents to identify the specific offenses for which [he] was
convicted and determine if those satisfy the definition. This process
would also require identifying and tracking down Shepard
documents . . . , analyzing those documents to ascertain [his] specific
offenses of conviction, and deciding whether those offenses qualify as
crimes of violence.” United States v. Wurie, 867 F.3d 28, 36-37, 36 n.8
(1st Cir. 2017) (ruling that despite elimination of the residual clause in
the career offender guideline, it was “not prudent to remand [the] case
for resentencing” as there was still “a significant possibility that [the
defendant] would be subject to the career offender enhancement
under the force clause” for his Massachusetts convictions of “resisting
1

78a
at 101-02.
Thus this Court declines to consider Amendment 798
to the Sentencing Guidelines on the defendant’s motion
under section 404 of the First Step Act and section
3582(c)(2) of title 18 of the United States Code.
IV.

Conclusion

For these reasons the Court DENIES Concepcion’s
motion for resentencing under the First Step Act, ECF
No. 69.
SO ORDERED.
/s/ William G. Young
WILLIAM G. YOUNG
DISTRICT JUDGE

arrest, larceny from the person, ABDW, and assault and battery on a
policy officer,” the “remand [would] potentially lead to a timeconsuming process, and sentencing courts are not mandated to take
into consideration non-retroactive substantive amendments to the
Guidelines”); see also Shepard v. United States, 544 U.S. 13, 16 (2005)
(Shepard documents to consider when evaluating sentence under the
Armed Career Criminal Act include charging documents, plea
agreements, plea colloquy transcripts, and trial judge’s explicit
factual findings “to which the defendant assented”).

